<html>
<title> - A CRISIS MISMANAGED: OBAMA'S FAILED SYRIA POLICY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                         A CRISIS MISMANAGED: 
                      OBAMA'S FAILED SYRIA POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 5, 2013

                               __________

                           Serial No. 113-32

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

81-339 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Tony Badran, research fellow, Foundation for Defense of 
  Democracies....................................................     8
Ms. Danielle Pletka, vice president, Foreign and Defense Policy 
  Studies, American Enterprise Institute.........................    19
Jon Alterman, Ph.D., director, Middle East Program, Center for 
  Strategic and International Studies............................    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Tony Badran: Prepared statement..............................    11
Ms. Danielle Pletka: Prepared statement..........................    21
Jon Alterman, Ph.D.: Prepared statement..........................    28

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63

 
            A CRISIS MISMANAGED: OBAMA'S FAILED SYRIA POLICY

                              ----------                              


                        WEDNESDAY, JUNE 5, 2013

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:08 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    Before I give my remarks, I wanted to point out that Mr. 
Connolly was kind enough to point out that the title of our 
hearing was a little prejudgmental. So we will be careful with 
the prejudgmental titles of hearings, although my statement 
will not follow that caveat.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, we will then recognize 
other members seeking recognition for 1 minute each. We will 
hear from our witnesses.
    Thank you, ladies and gentlemen.
    And without objection, all of your written statements will 
be made a part of the record and members may have 5 days to 
insert statements or questions for the record, subject to the 
length limitation in the rules. And the Chair now recognizes 
herself for 5 minutes.
    It has been over 2 years since the popular uprising sparked 
up across Syria against al-Assad and his murderous regime. 
Amidst the backdrop of the Arab Spring, thousands of Syrians 
demonstrated against Assad, calling for the despotic ruler to 
step down, to release political prisoners, and institute 
democratic reforms. These protesters were met swiftly with the 
harsh hand of Assad as he unleashed his police who doled out 
brutal beatings upon the demonstrators resulting in many 
deaths.
    Now as we enter the third year of this conflict, the Assad 
regime has been responsible for the murder of over 80,000 
Syrians, and over 1.5 million people have fled seeking refuge 
in other countries. And this administration had an opportunity 
to support the demonstrators from the beginning who took to the 
streets demanding that Assad step down.
    Yet just like it failed to voice a full throated support 
for the demonstrators in Iran after the 2009 elections, it was 
deafeningly silent and failed to advance the cause for 
democratic reform. Instead of supporting the popular uprisings 
from the onset and immediately calling for Assad to step down, 
President Obama waited 5 months to publicly call for his 
removal. The delayed response also allowed for extremist groups 
and al-Qaeda affiliates to move in to coopt the movement, 
setting up the bloody conflict that we see every day.
    There are tens of thousands dead, millions who have been 
displaced, and the conflict continues to spiral out of control. 
It has placed an incredible burden on our allies in the region, 
like Jordan, which takes in thousands of Syrian refugees daily, 
and rightfully fears what might come next should the violence 
spill over into its own area.
    But I understand that there are no perfect solutions for 
this crisis. Each option before us has its risks, and I firmly 
believe that what we need is a political solution in Syria. We 
cannot shoot our way out of this mess. We need to work with our 
allies in the region who fear the repercussions of a protracted 
conflict in Syria.
    And we need to address the serious issue of Moscow 
continuing to arm the regime. An influx of Russian arms into 
Syria has escalated this battle and has helped to prop up 
Assad. If Moscow does not cease arming the regime, the United 
States should re-evaluate its relationship with Russia.
    Together with my colleague Brad Sherman, I introduced H.R. 
893, the Iran, North Korea, and Syria Nonproliferation 
Accountability Act, that would address this issue head on. I 
have always and will continue to believe that we should not arm 
the rebels. There is just no way of guaranteeing that they will 
remain loyal to the United States and would be willing to 
promote democratic principles and respect human rights post-
Assad. The opposition is too fractured, too convoluted to be 
able to ensure that the arms don't eventually end up in the 
wrong hands that may one day turn these weapons against us or 
our allies, like Israel.
    What we should be focusing on is breaking the Iran-
Hezbollah-Assad link because if Assad falls today, I fear what 
will happen tomorrow: Syria is the linchpin that holds Iran's 
strategic influence into the greater Middle East. Should Assad 
fall, Iran and Hezbollah might quickly move to fill the power 
vacuum. And should Iran and Hezbollah get ahold of Syria's 
chemical weapons, not only would this cause greater tensions in 
the region and seriously endanger our friend and ally Israel, 
but it could spark an even greater conflict.
    The President has repeatedly warned that the utilization or 
the moving around of chemical weapons in Syria would change his 
calculus, and it is a red line that should not be passed. 
Reports suggest that chemical weapons have been used on a 
handful of occasions, yet the United States has balked at 
calling it so. In doing so, it sent the message, not just to 
Assad but to the opposition and to other countries in the 
region, such as Iran, Egypt, and North Korea, who seek to test 
our will, that we will not indeed hold our line in the sand.
    And with that, I yield for his opening statement to Mr. 
Deutch, my Florida colleague.
    Mr. Deutch. Thank you, Chairman Ros-Lehtinen for holding 
today's hearing. Syria continues to be one of the most pressing 
issues before us. I thank our witnesses as well for appearing 
here today. I hope today will be a productive discussion on how 
we can move U.S. policy toward Syria forward and, 
notwithstanding the title of the hearing, that it does not 
devolve into 2 hours of political grandstanding.
    Let me be clear from the outset, there are no easy answers, 
and there have been miscalculations in the world's approach 
thus far. But there are no easy or painless solutions. It 
should of course be the policy of the United States to pursue a 
negotiated settlement. Yet even with the seeming endorsement of 
the Russians, peace talks are proving a long way from reality.
    It has now been nearly 27 months since the uprising in 
Syria began. Over 80,000 lives have been lost. There are 1.6 
million refugees officially registered with the U.N., with that 
number likely substantially higher. There are 4 million 
internally displaced people. These staggering numbers will only 
rise more quickly as this conflict worsens. We have talked 
about the effects of potential spillover in the region, which 
unfortunately is becoming a reality. There were attacks from 
Syria on Hezbollah strongholds in Lebanon last week and mortars 
fired in the Golan Heights.
    Iran has fully dug in, sending every kind of support 
imaginable to Assad. We cannot overlook the seriousness of 
Syria's impact on the entire Middle East. As I said back in 
March, when the full committee held a hearing on Syria, the 
decisions we have to make are difficult; but as I said then, 
just because they are difficult doesn't mean that we shouldn't 
be making them. None of us want to see the United States 
embroiled in another conflict. But I do believe that there are 
ways the United States can be involved in Syria without putting 
American soldiers' lives at risk.
    For those that argue a more serious strategic U.S. response 
is needed, one that includes providing lethal assistance to 
opposition groups, I would say that the fractured coalition we 
saw last week in Istanbul should warn us that the opposition 
lacks organization and coherent leadership. Our assistance 
should be used as a tool to encourage the opposition leadership 
to get its act together.
    But beyond the discussions of whether to arm, who to arm 
and how to do it, there are real steps that we can take now to 
address the humanitarian crisis. The United States has pledged 
$510 million of humanitarian assistance to those affected by 
the violence in Syria, committed to providing $250 million in 
transition support to the Syrian opposition council. We 
continue to talk about creating a humanitarian corridor, which 
would have a significant impact on our ability to provide aid 
to those in need. There are real steps we can take to help our 
allies, who are sheltering hundreds of thousands of refugees, 
including pushing international donors to fulfill their pledges 
to countries in need.
    And in the immediate term, there are very real steps we 
could take to let our friends in the region know that we will 
not tolerate efforts to undermine U.S. interests in Syria. Our 
strategic relationship with our allies in the Gulf is crucial 
to ensuring their security and regional stability. Reports 
yesterday indicate the United States will send a Patriot 
missile battery and F-16 fighters to Jordan for a drill and may 
keep them there. We have already stationed a patriot battery in 
southern Turkey.
    There must be an understanding that it is in all of our 
interests to ensure that we are supporting the opposition 
groups that share our mutual security goals. I would urge the 
administration to use every bit of leverage with Turkey and 
Qatar to prevent the arming of extremist groups and to work 
together with Jordan, Saudi Arabia, and the UAE to identify and 
support moderate opposition forces.
    Should the U.S. and Western allies choose to move ahead 
with the no-fly zone, the Arab League must provide support for 
these efforts. And Russia cannot obstruct these efforts or for 
that matter any other efforts to end Assad's reign of terror. 
Madam Chairman, I appreciate you calling this hearing today 
because I agree that the U.S. policy toward Syria has not yet 
yielded an end to the conflict, but I would caution that there 
is no magic bullet, there is no quick fix. Our focus now must 
be on deciding the best course of action to prevent the 
continued slaughter of the Syrian people, to ensure our own 
national security, and to prevent the conflict from 
destabilizing the region.
    And I yield back the balance of my time.
    Ms. Ros-Lehtinen. Thank you very much for an excellent 
opening statement.
    I will now recognize members for 1 minute opening 
statements, starting with Mr. Steve Chabot of Ohio, who is the 
chairman of our Subcommittee on Asia and the Pacific.
    Mr. Chabot. Thank you, Madam Chair.
    Thank you for calling this important and timely hearing 
this morning.
    Let's face it, the situation continues to deteriorate in 
Syria. The list of innocent victims slaughtered by the Assad 
regime grows daily. And the Obama administration's Syria policy 
continues to remain murky at best.
    I look forward to hearing from our excellent panel of 
witnesses here this morning. And I hope they can address a 
couple of issues of particular concern to me. First, the role 
of Hezbollah and its future in a post-Assad era: Will it remain 
the powerful force that it is today? And will its role in 
neighboring Lebanon, for example, be affected? And how would 
the fall of Assad affect the future role of Iran in the region?
    I am also concerned about how the growing turmoil in the 
region might affect the stability of Jordan. It is reported 
that nearly \1/2\ million Syrian refugees have registered in 
Jordan to date, that one camp alone currently has more than 
140,000 people.
    So I look forward to hearing from our panel and hope that 
our witnesses today can address some of these important issues. 
Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Chabot.
    Now we will hear from Mr. Connolly from Virginia.
    Mr. Connolly. Thank you so much, Madam Chairman.
    And thank you for your sensitivity on the title of this 
hearing because it presupposes there is something for us to 
manage. And I would contend that there are no easy choices for 
the United States in Syria. And to suggest otherwise is itself 
misleading. I do think we have four very important concerns, 
sets of concerns. One is, who do we support? And you have very 
ably laid out some of the difficulties in that question 
yourself, Madam Chairman.
    Secondly our concern of the spread of the conflict 
regionally. It is already sucking in Hezbollah from Lebanon, 
Iran, and of concern obviously to Turkey in terms of cross-
border shelling.
    Thirdly, there is Russia's role in blatantly arming the 
Assad regime. And that has to be a concern in our bilateral 
relationship and the future of it.
    And finally, there is the arsenal of chemical weapons and 
their possible utilization and deployment as the conflict 
matures. Those are legitimate concerns I hope we will address 
in today's hearing.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly.
    Mr. Kinzinger of Illinois recognized.
    Mr. Kinzinger. Thank you, Madam Chairman. I am just 
disappointed in everything that is going on. I mean, I think if 
you talk to our allies, if you look around the world, people 
are just asking, what is the United States' position? What are 
you doing?
    I am a big believer that when the America retreats from the 
world, chaos ensues. And so when we see America ceding its role 
of leadership around the globe, we see what is occurring in the 
Middle East, which is nobody knows where anybody is at; nobody 
knows where the United States stands at. And I think this is an 
extension of something that was coined a little bit ago, a year 
or 2 ago, the ``lead from behind'' strategy, which to me is a 
shocking secession of American leadership around the globe.
    I am very concerned with what is going on in Syria. But I 
am more concerned with the perception that the United States 
has given up on the Middle East and that the United States is 
looking for the easy way out. So I look forward to the panel 
and your discussion and your insight into what is going on.
    I yield back the rest of my time.
    Ms. Ros-Lehtinen. Thank you very much, sir.
    Mr. Schneider of Illinois is recognized.
    Mr. Schneider. Thank you, Madam Chairman, for the time.
    Thank you to the witnesses.
    The current conflict in Syria has created an untenable 
situation which threatens the existence of a future, a unified 
state, while also compounding the concerns over how this civil 
war will ultimately be resolved. Many have speculated over the 
future of Syria and its viability moving forward as an intact 
entity.
    Our national strategy must embrace both certain core 
principles in evaluating additional engagement in Syria.
    First, I believe we have to identify, isolate, and secure 
the weapons of mass destruction, chemical and biological.
    Second, I think we have to diligently act to make sure that 
we support our allies in the region--Jordan, Turkey, Israel, 
the Gulf States--to make sure that the situation in Syria 
doesn't bring them down.
    And third, I think we have to seek a viable State with a 
functional government that maintains the geographical 
continuity of Syria and avoids the class of the State which 
would threaten our allies in the region.
    These core principles provide a template for evaluating the 
potential path forward in Syria. I look forward to hearing from 
the witnesses on their perspective in addressing these critical 
concerns.
    Ms. Ros-Lehtinen. Thank you, sir.
    Next, we will hear from Dr. Yoho, my Florida colleague.
    Mr. Yoho. Thank you, Madam Chairman.
    Good morning. I look forward to hearing your testimonies 
today. And I look forward to hearing feedback from you guys and 
thinking outside of the box of how we can fix this situation or 
help to fix this situation and what role the United States 
Government has in this so that we don't repeat the errors of 
our foreign policies over the last 30 years. And so I look 
forward to hearing that. Thank you.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Kennedy of Massachusetts is recognized.
    Mr. Kennedy. Thank you, Madam Chair, for calling this 
hearing. I want to thank the ranking member as well and thank 
our panelists, our witnesses for coming in and look forward to 
your testimony. I, too, like all of the members have indicated, 
am very concerned over recent developments, continued support 
and increasing support for the Assad regime, Russia's recent 
sale of advanced weapons, and Hezbollah's flood of fighters 
into the region as well. I think that brings two large 
questions in terms of the millions of refugees and internally 
displaced persons and the prospects for wider war in the 
region.
    I know that the United States and Secretary Kerry I believe 
has done an admirable job trying to bring regional powers to 
one table. That is going to come in the coming days. And I 
would be eager to hear about your opinion about prospects for 
any sort of negotiations that are going to take place in 
Geneva, and what are going to be the ramifications of that 
depending on how fruitful those discussions are. Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Messer of Indiana is recognized.
    Mr. Messer. Thank you, Madam Chairman, for this 
opportunity.
    I want to thank both you and the ranking member for your 
foresight in having this hearing. I think the American people 
see the challenges in Syria as a mess with no clear answers. 
And probably the most cogent analysis that I have heard of what 
is happened there was a take on the famous Las Vegas line that 
what happens in Syria won't stay in Syria. That much is clear. 
And I look forward to your insights today in helping us figure 
out what the appropriate policy is for our Nation. Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    Congresswoman Meng of New York.
    Ms. Meng. Thank you, Madam Chairwoman, and thank you Mr. 
Ranking Member for holding this important hearing.
    I look forward to hearing from our panelists today about 
possible new avenues for addressing this conflict. In 
particular, I would like to explore how renewed efforts in 
Europe to curtail Hezbollah financing might affect the 
organization. This presents an interesting opportunity, as 
Hezbollah will be stretching itself thin both politically and 
financially by engaging in Syria.
    And I would also like to explore our relationship with the 
Kurds in the Syrian context. The Kurds are organized, well 
financed, and relatively pro-American. In northeast Syria, they 
are maintaining control of their territory and battling al-
Nusra.
    The Kurds are not a panacea to the Syrian problem, but I 
wonder whether we could be doing more with them, particularly 
in light of recently improved Turkish and Kurdish relations. 
Thank you.
    Ms. Ros-Lehtinen. Thank you, ma'am.
    Mr. Higgins of New York is recognized.
    Mr. Higgins. Thank you, Madam Speaker.
    I just also want to caution people not to fall into the 
trap of believing that there are absolutes here, and everything 
is black and white. There is a lot of gray. And it is not a 
question of beating the Assad regime and handing it over to the 
good guys. They may be a little bit better. They may be a lot 
worse. And this is the problem that we run into. The opposition 
is made up of at least eight different groups. In many of the 
transitions that have occurred there, you have had three 
different leaders of the opposition in the past 4 weeks alone.
    Syria is going to have to figure this out. You know, all 
nation building, unfortunately, in human history requires some 
degree of civil war. During the American Civil War, in 1860, 
the population of America was 34 million people, and there were 
over 600,000 deaths. In Syria, a nation of 24 million people, 
you have 100,000 deaths. Not that we want to tolerate that, but 
we can't get involved in every civil war in the Middle East. 
That would be number three.
    And the lack of an American presence is not radicalizing 
Syria. Syria is radicalized. And keep in mind, in Iraq, we went 
in there, took out Saddam Hussein, dissolved the Army and the 
Ba'ath party, and then, after that, Iraq became radicalized. So 
oftentimes, the hard reality of this is that these nations have 
to figure this out. We can't always nation build in the Middle 
East. We have to build the middle class right here in America.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Chairman Ros-Lehtinen and Ranking 
Member Deutch for holding today's hearing on this important 
conflict and humanitarian crisis in Syria.
    I thank the witnesses for being here and look forward to 
your testimony.
    The question before our subcommittee today is how and 
whether the United States should involve itself in the ongoing 
civil war in Syria, both our own and with our partners in the 
region and around the world. And it is a very complicated 
question. But one thing is clear, I believe the global 
community must respond.
    In the last 2 years, as he has tried to maintain his 
tenuous grip on power, President Bashar al-Assad and his 
government have brutally and indiscriminately attacked rebel 
forces and civilians within Syria. Hundreds of thousands of 
Syrians have been forced to seek refuge in neighboring 
countries or have been displaced internally. By deploying air 
and artillery assaults in residential areas, Bashar al-Assad 
has brutally targeted and murdered thousands of civilians. I 
hope we will focus today on our response to the ongoing 
situation in Syria that provides humanitarian aid, addresses 
what has become a serious refugee crisis in the region, 
incorporates a global comprehensive strategy to end the 
violence, and promotes stability in this important region in 
the world.
    I look forward to hearing the perspectives of the witnesses 
that we have assembled here today to discuss this important 
topic.
    I thank the chair, and I yield back.
    Ms. Ros-Lehtinen. Thank you very much.
    And seeing no further requests for time, the Chair is 
pleased to introduce our distinguished panelists.
    First, we welcome Tony Badran, a research fellow at the 
Foundation for Defense of Democracies. He focuses on Lebanon, 
Syria, and Hezbollah as an expert on U.S. foreign policy toward 
Syria and nonstate actors and terrorist groups. Mr. Badran has 
written extensively on Hezbollah and has testified before 
Congress and the European Parliament.
    Welcome, Tony.
    Next, we welcome Ms. Danielle Pletka, the vice president 
for foreign and defense policy studies at the American 
Enterprise Institute. Prior to this, she served for 10 years as 
a senior professional staff member for the Near East and South 
Asia Subcommittee on the Senate Foreign Relations Committee. 
Ms. Pletka has written extensively on the Middle East, 
democracy, and terrorism and has testified before our committee 
on these issues several times.
    Welcome back, Danielle.
    Third, Dr. Jon Alterman is the director of the Middle East 
Program at the Center for Strategic and International Studies. 
Prior to this, he served as a member of the policy planning 
staff at the Department of State and as a Special Assistant to 
the Assistant Secretary of State for Near Eastern Affairs. In 
addition to his policy work, he has had a long career in 
academia, having taught at Johns Hopkins University, George 
Washington University, and Harvard.
    Thank you very much.
    And we will begin with you, Mr. Badran.

 STATEMENT OF MR. TONY BADRAN, RESEARCH FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Badran. Thank you, Madam Chairwoman and Ranking Member 
Deutch and distinguished members of the committee.
    I thank you again for inviting me here today to testify on 
today's very important hearing. As the United States has 
struggled to define its Syria policy over the past 2 years, the 
Syrian war has metastasized regrettably along very predictable 
lines. The debate in Washington about U.S. policy has been 
largely framed in terms of either staying out of the conflict 
or an Iraq style intervention.
    Before we discuss specific tactics, I suggest that we 
should start by asking, what are our strategic goals in Syria? 
The primary problem with Washington's current policy is not 
that it has been too reluctant to get involved; it has been 
that it is reading the strategic map incorrectly.
    As it stands today, Syria is effectively divided. The 
rebels are in control of much of the north and the east, with 
some regime pockets in those areas. And the regime meanwhile 
controls the coastal mountains in the northwest, much of 
central city of Homs and most of the capital of Damascus.
    Recently, the regime, with direct support from Iran and 
Hezbollah, launched a campaign to secure the corridor from Homs 
to Damascus and to recapture the strategic town of al-Qusayr on 
the Lebanese border. News this morning actually is that the 
town has fallen into their hands.
    The plan is of consolidating the regime in a reduced but 
clearly defined enclave. And this is Assad's plan B in Syria, 
but it is also Iran's plan B in Syria. Iran has signaled very 
clearly that it considers the toppling of the Assad regime to 
be a red line that it will spare no expense to prevent from 
happening. Therefore, to safeguard its core interests, Iran 
seeks to ensure the regime's continuity in the reinforced 
canton, with access to the Mediterranean and territorial 
contiguity with Tehran subsidiary in Lebanon, Hezbollah.
    This explains the battle for al-Qusayr as you can see on 
the map, the town lies across the border from Hezbollah's north 
stronghold in northeastern Lebanon. Securing al-Qusayr aims to 
protect the corridor along Lebanon's eastern border down to 
Damascus and also secures the land bridge from the Syrian ports 
on the Mediterranean as well as from the Damascus airport 
further south and to ensure supplies to Hezbollah-controlled 
territory in the Bekaa. This enclave is a vital island of 
influence for the IRGC on the Mediterranean, adjoined and 
flanked by Hezbollah and Lebanon.
    In effect this is what the Assad regime today is, an IRGC 
protectorate. Assad is relying on the Iranians for funds, arms, 
hardware and personnel. Hezbollah is spearheading operations on 
various fronts. And other Iranian assets from the pro-Iranian-
Iraqi militias are as well deployed in Damascus and elsewhere.
    Iran views the battle for Syria in strategic terms. 
Unfortunately, current U.S. policy does not, and that is the 
problem. More than 2 years after the Syrian uprising, the U.S. 
policy remains unclear.
    What is our primary interest in Syria? Do we want to see 
the Assad regime toppled or not? Washington's position is 
ambiguous. If the regime in Tehran is our principal foe--and I 
submit that it is--then U.S. policy should proceed from this 
basic starting point. We should begin by clearly and credibly 
defining the goal of U.S. policy to be the removal not just of 
Assad personally but of his regime. U.S. policy should 
explicitly state that the maintenance of the structures of 
Iranian influence in Syria is antithetical to U.S. interests.
    Currently, the policy seems more focused on the faith of 
Assad himself but that misses the larger strategic context. 
Worse still, the perception in Damascus is that in contrast 
with Iran's commitment to the survival of the regime, the U.S. 
lacks such commitment and such strategic clarity.
    The current U.S. posture is not cost-free, both on the 
moral and strategic level. Aside from the horrific toll in 
human life, the policy as it stands now is on course to preside 
over the division of Syria into an IRGC island in possession of 
chemical weapons and advanced Russian strategic weapons system 
in one part of the country and a patchwork of militias in the 
rest. The U.S. must devise a twofold strategy: Prioritizing the 
threat to be first to break the Iranian archipelago of 
influence in the Mediterranean.
    To deny the Iranian victory, the U.S. must target the 
avenues of Iranian support to the Syrian regime. That would 
mean striking the Damascus airport and various airfields in 
western Syria using standoff weapons, if necessary, to achieve 
these results.
    In tandem with this measure, the U.S. should exercise 
leadership, bringing together allies that have been eager from 
the beginning for more robust action, and use their resources 
and their intelligence channels to the various rebel groups, 
using a two-pronged position approach. One on the border with 
Turkey in the north, using Turkey's excellent relations with 
some of the rebel groups fighting there, and a similar policy 
in Jordan in the south.
    To conclude, openly stating that handing Iran a strategic 
defeat in Syria is a priority for the U.S. is where it must all 
start. Exercising credible U.S. leadership to rally already 
eager allies around that stated objective should follow and the 
rest will flow from there. Thank you.
    [The prepared statement of Mr. Badran follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you Mr. Badran.
    Ms. Pletka.

 STATEMENT OF MS. DANIELLE PLETKA, VICE PRESIDENT, FOREIGN AND 
     DEFENSE POLICY STUDIES, AMERICAN ENTERPRISE INSTITUTE

    Ms. Pletka. Thank you, Madam Chairman and Mr. Deutch.
    I am honored to be back before the committee. And I thank 
you for holding this enormously important hearing. I think we 
have gone over a lot of the history behind how we have got to 
this moment in Syria.
    What we see right now on the ground is the Iranian forces 
that Tony talked about, not just IRGC, but also Iranian ground 
troops. We see Hezbollahis fighting on the ground. We see al-
Qaeda forces fighting on the ground. We see Russia. We see 
Qatar. We see Saudi Arabia. We see Iran. We see all these 
countries in the mix.
    And of course, the one country or the group of countries 
that you don't see are Western democratic nations. That means 
that anybody who shares our values, our ambitions on the ground 
is disarmed, under-armed, and under-represented. Basically, 
everybody else is coming to the fight, and we have not.
    That is my view, and I do believe that we have a firm 
interest, not simply because Syria is a linchpin for Iran, as 
you said, Madam Chairman, not simply because this is Iran's 
most important ally, but because we have a humanitarian, a 
moral, and a strategic interest in Syria.
    I think what we need to do is pretty straightforward. It 
has been said time and again, and I think there are reasonably 
good arguments to make for how we can step forward. We 
shouldn't forget that upwards of 80,000, perhaps even as many 
as 120,000 people have been killed. If you have seen the 
pictures of the children that were killed over this last 
weekend, buried in mass graves along the Syrian coast, I can 
assure you that the notion that we somehow have no interest 
would be abhorrent to us.
    We also have an interest because of the credibility of the 
President of the United States. We may like him. We may not 
like him. We may agree with him. We may not agree with him. We 
may have voted for him, and we may not. That doesn't matter.
    He is the President of the United States. He said that 
Assad should step down. Assad hasn't stepped down. He said that 
chemical weapons were a red line for his administration, a 
``game-changer.'' He said it. In fact, chemical weapons have 
been used. The U.N. confirmed that it believes they have been 
used. France and England have both suggested they believe, as 
have our intelligence community.
    In fact, if this was a red line, what does this say about 
the credibility of the President of the United States? Forget 
about Syria. Let's assert that we don't care about Syria. What 
does this say to the Iranian Government about our credibility 
on its nuclear program if in fact on the question of Syria we 
are not serious? It suggests to the world that the United 
States is, in fact, a paper tiger, and I believe we are 
behaving as one.
    What we need to do is vet and arm those rebels who embrace 
democratic norms, have a demonstrated distance from al-Qaeda 
and related groups, and who have committed to turning over 
Assad's illegal weaponry, chemical weapons, missiles, and other 
weapons of mass destruction. We should use standoff weaponry, 
such as the Tomahawk missile to disable Syrian airfields and 
render inoperable the Syrian air force and its resupply hubs 
that are now facilitating Assad's advance.
    We should consider with our allies in NATO and in the Arab 
League the imposition of a no-fly zone. I don't believe that 
this is the demanding exercise that some have suggested. In 
fact, Syria's Russian-supplied air defenses are probably at 
less than 50 percent. Some have suggested even at 10 percent 
capacity. They have not been used. The notion that we could not 
take those out, we, the United States, could not take those out 
is almost unthinkable.
    And we should immediately impose new sanctions on 
Hezbollah, including broad travel sanctions, freezing accounts 
of Hezbollah-owned companies, related banks, isolating 
families, and supporters of Hezbollah. We should ban the entry 
into the United States of all Hezbollah officials, their 
immediate families, officers, and relatives of banks and 
companies with substantial Hezbollah holdings.
    Without his air force, Assad will be far more vulnerable; 
without Hezbollah on the ground or at least if Hezbollah is 
hobbled, Assad's forces will be far more vulnerable.
    The reason we need to tip the balance should be pretty 
obvious. What should we do once Assad falls? Also a vital 
question. And we need to answer that question now and not 
dither tactically while groups alien to us take over. What do 
we support? What do we support? Democratic rule, equal rights, 
secularism, the protection of minorities, women's rights, and 
free markets.
    Throughout the Middle East, countries have moved away from 
these values, and we have done nothing.
    Throughout the countries of the Arab Spring, we have seen 
as each of these countries has moved away, and we have 
continued to give aid a pace. We have not emphasized these 
values. We haven't rewarded people who share those values.
    You, this committee, Members of Congress, have an enormous 
say in how we give our taxpayer dollars to these countries, to 
these governments, and to NGOs. And we have to change the way 
that we administer our assistance.
    Just a last word, for those who ask why America should 
care, remember, when we allow extremism and tyranny to flourish 
without counterbalancing it, we pay a heavy, heavy price. We 
may not pay that price immediately, but we will ultimately. We 
have an important strategic choice. We have an important moral 
choice. And we should do the right thing. If the President 
doesn't want to put a strategy in place, I suggest that you 
should.
    [The prepared statement of Ms. Pletka follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. Thank you.
    Dr. Alterman.

    STATEMENT OF JON ALTERMAN, PH.D., DIRECTOR, MIDDLE EAST 
    PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Alterman. Madam Chair, Ranking Member Deutch, 
distinguished members, it is an honor and a pleasure to appear 
before you again today, this time to talk about U.S. policy 
toward Syria. It is hard for anyone to look at Syria and be 
satisfied, least of all U.S. Government officials. There is an 
important different though between being dissatisfied with 
conditions in Syria and terming U.S. policy a failure. There is 
an even bigger difference between being dissatisfied with 
policy and implementing one that will actually work better.
    As we discovered all too well in Iraq, not all alternatives 
to a troubled policy are an improvement. Indeed, from George 
H.W. Bush's policy of engagement with Iraq in the late 1980s to 
a policy of diplomacy in the 1990s to a policy of invasion and 
reconstruction in the 2000s, we have seen several decades of 
U.S. policies that have failed to meet even modest expectations 
set for them.
    Iraq is a reminder of our limited ability to shape outcomes 
in complex and polarized situations and a reminder that the 
quality of outcomes sometimes has only a distant relationship 
to the level of effort and resources that we put into them.
    Six years ago, the full Foreign Affairs Committee held a 
hearing with a somewhat more sober title than the present 
hearing entitled, ``Iraq: Is The Escalation Working?''
    Madam Chair, at that hearing, you quite correctly said, 
``Before writing off Iraq as lost, we must ask ourselves what 
alternative policy there is and what are the consequences for 
the safety of our troops and for the United States' strategic 
interests in predetermining defeat.''
    I totally agree. And it is that constructive spirit that 
you brought to the task then that I would like to bring to the 
table today.
    As you suggested at the time, the proper measure of a 
policy is the prospect of its alternatives. In order to judge 
that, one must first decide one's interest that the policy is 
seeking to preserve and the tools at hand to protect those 
interests.
    To me, the starting point is that Syria is strategically 
important because of its effects on its neighbors and 
neighborhood. By both geography and design, Syria is a hub 
state. All five, all five, of Syria's neighbors are important 
to the United States.
    The second aspect that needs attention is the rise of 
jihadi groups in Syria who feed on the conflict to recruit 
worldwide.
    The third aspect is the malign efforts of Iran, Russia, and 
others to shape a status quo in the Middle East that is deeply 
unfavorable to American interests.
    The written testimony goes into considerably more detail 
than I could do so here, but I have five basic recommendations 
for U.S. policy going forward, which represent modifications of 
our current policy rather than its abandonment.
    The first is safe havens. I share the American public's 
caution about committing troops to Syria, and I fear that we 
could be drawn into actions that we neither intend nor desire. 
But the first point I made about the fragility of neighboring 
states straining under the flow of refugees needs attention. It 
seems to me we should be actively considering the creation of 
safe havens. The key is to have limited objectives in doing so 
and not to provide a base for people in those areas to try to 
overthrow the regime because ultimately, that just puts us into 
the fight.
    Second is weapons. I see wisdom in providing limited 
weapons for self-defense with the desire of helping civilians 
protect their homes, rather than with the hope that weapons can 
tip the balance in the war.
    And diplomacy, as many of you have said, we have been 
pursuing diplomacy with friends and foes alike. But from the 
outside, it looks to me like there is too much agreeing to 
disagree. We can't care about everything, but we should care 
deeply about the diplomacy surrounding Syria and make clear 
that it affects the core of our relationships. This is true for 
our allies. This is true for our relations with Russia. And I 
think that we have to be more creative as we deal with Russia, 
finding potential future courses of policy that are more 
agreeable to us than they are to the Russians.
    And intelligence, the jihadi networks are notoriously hard 
to penetrate, but given the fact that they have to recruit so 
much, this should be a bonanza for friendly services to 
infiltrate al-Qaeda and its affiliate networks and try to 
understand them. We should also look for ways to share 
intelligence with carefully vetted fighting groups in order to 
help compensate the superior aerial coverage of the Assad 
regime.
    In terms of a settlement, I agree with you, Madam Chair, 
that as odious as the Assad regime is, there is little question 
that even more odious characters lurk in Syria. A settlement 
that arises from a negotiated transfer of power stands a far 
greater chance of improving Syrians' lives than building from 
the ashes of even deeper sectarian killings and ethnic 
cleansing.
    I don't suggest this path because it is a perfect one but 
because it seems to me to be the best out of a series of really 
bad choices. We could clearly dislodge Basahr al-Assad with 
enough time, money, and lives, but it is unclear we want to pay 
that price or how we might shape the aftermath. There isn't a 
simple solution to the problem of Syria and even with a 
commitment of much greater funds, the battle is likely to last 
for many more years.
    When I worked on the Hill myself with Congressman Connolly, 
the U.S. Government supported decade-long insurgencies in 
Afghanistan and Nicaragua and helped defend the Government of 
El Salvador in its own decade of war. Regardless of what 
happens to Bashar tomorrow, the problems of Syria will be with 
us for years to come.
    We all have hopes for Syria, and I would argue that 
sentiment in the United States is relatively unified as to what 
a positive outcome in Syria would look like. Yet, rather than 
focus on our hopes, we have to focus on our needs. We must 
pursue a policy that meets those needs for Syria while being 
attendant to the other demands placed on our military and our 
Government. Our interests call for focus and not for hopes.
    Thank you.
    [The prepared statement of Mr. Alterman follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much for three excellent 
panelists.
    I wanted to ask on two issues. The use of chemical weapons 
and the role Russia. You have all referred to that.
    In April, as you pointed out, Ms. Pletka, the White House 
sent a letter to Congress that said that intelligence agencies 
assessed chemical weapons had been used in Syria with varying 
degrees of confidence. And yesterday, as you said, France and 
Britain announced that they have confirmed that sarin had been 
used several times in the Syrian conflict. What should the 
United States and other responsible nations do to ensure that 
Assad's chemical weapons aren't used further, if these reports 
are true? How can we prevent the theft or transfer by or to 
terrorist groups? How can we approach the difficult task of 
securing and safely dismantling the stockpile? How can we 
receive assurances from the opposition forces to allow us to do 
this if they succeed in ousting Assad? And turning to Russia, 
as we know, Russian arms have helped lead to the escalation of 
violence and bombings. And the addition of Russian weapons, 
whether they have been used totally or not to the theater, 
heightens tensions across the region, fearing that these 
advanced weapons systems could fall into the wrong hands, and 
be turned against the U.S. or Israel.
    Russia clearly has a financial interest in arming Syria, 
has no interest in seeming to stop selling arms to Assad, and 
the latest sales announcement not only caused harm in Syria but 
harms the diplomatic relations between U.S. and Russia to try 
to broker a peace between the warring parties. How can we 
leverage our power to convince Russia to stop arming Assad and 
his forces, to stop its support for the regime, to try to 
negotiate a peaceful settlement that will bring this bloody 
conflict to an end? And if Russia continues to arm Assad 
despite our best efforts to get Moscow to stop, would sanctions 
against Russia be an effective tool in our diplomatic toolbox 
to facilitate this? We will start with Mr. Badran. If you would 
keep the answers brief, so we can get to the three of you.
    Mr. Badran. Thank you. With regard to the Russian weapons 
system, it is important to understand what that means for 
Russia. On the one hand, the Russian position on Syria has not 
changed. They have an interest in the survival of this regime. 
It is a foothold for them in the region, and it is an 
opportunity to sabotage U.S. interests as well. But now what 
happened also is that they are giving these advanced strategic 
weapons, be they the S-300 anti-aircraft or the anti-naval 
missiles that they gave, those things now are effectively in 
the hands of an IRGC base on the Mediterranean. And this is 
something that we have to look at, when we look at Israel's 
reaction to these things, it is important to draw the lesson 
from their actions.
    Ms. Ros-Lehtinen. Let me just interrupt you and just get to 
the other two because we only have 2 minutes.
    Mr. Badran. Sure.
    Ms. Pletka. So, briefly, on the question of chemical 
weapons, there is no way to secure those chemical weapons 
through any of the steps that I advocated. A no-fly zone is not 
going to secure chemical weapons, neither is taking out Assad's 
air power, neither is arming the opposition. The only way to 
secure chemical weapons 100 percent is if we put troops on the 
ground and we take them ourselves. And we don't want to do 
that. None of us have recommended it. I didn't hear anybody on 
the dais recommend it either. Nobody thinks this is a good 
idea.
    That means that if you preclude that option, you require 
somebody on the ground to win. Assad wins. Iran, as Tony said, 
Iran, Assad have these weapons. Of course, they have had them 
all along. It didn't concern us this much 2 years ago. If the 
opposition wins, if the wrong guys in the opposition continue 
to prevail--and they are right now the best armed--when you 
talk about arms getting into the hands of bad guys, let me 
promise you, arms are already in the hands of bad guys. Arms 
are in the hands of the worst guys. It is the better--and I 
appreciate Jon's statement because of course there is no good 
here. But the better guys are the least well armed. The bad 
guys are the best armed. The only way that we can secure these 
is to look for an outcome in which we can work with a party 
that is responsible and committed to the same or similar ideals 
as we.
    Ms. Ros-Lehtinen. Thank you.
    Let me just give the last 30 seconds to Dr. Alterman.
    Mr. Alterman. Madam Chair, on the Russia issue, as I said, 
I think we have to, first, as we negotiate with the Russians 
over this, we have to find alternative future courses of policy 
they like less than what we are doing. Appealing to their 
higher sensibilities I think isn't going to work. There are 
things we can offer that are will make the Russians unhappy. 
There are things we can probably offer to make them happy. The 
Russians have a serious concern with terrorism and jihadism in 
the Caucasus. We may have things we can help them with. And I 
think that ultimately we have to be negotiating better, not 
appealing to their higher instincts but to their interests, and 
understanding what those interests are.
    Ms. Ros-Lehtinen. Thank you very much.
    Thank you. Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chair.
    And thanks to the panel for excellent testimony.
    Dr. Alterman, I will start with you. I continue to be 
frustrated with the actions of our allies that continue to 
undermine our security in the region. The United States shares 
security responsibilities for the Gulf with our allies. In 
fact, the United States spends a lot of money and sells a lot 
of arms to ensure that security. And while some have been 
supportive, there are those that continue to strengthen 
extremist groups. What leverage do we have to convince Qatar 
and Turkey, for example, that supporting extremist elements 
ultimately threatens regional security?
    Mr. Alterman. Thank you very much for that question.
    It is hard to say what we should be doing that we are not 
doing, and it is hard to figure out exactly what we are doing. 
The emir of Qatar was just here. I don't know the nature of 
those conversations. I don't know the extent to which the 
President spoke to him, quite frankly, about it. I think the 
nature of our deep relationships with these countries means 
that there are things we can both hold at risk and things we 
can reward. And there are many, many common interests that we 
should bring to bear. I think the key issue is elevating it, 
making it clear that this is very important to us, that there 
are things that we will not continue to do, things we will do 
less of because we can't have people undermining what we 
consider a vital interest.
    Mr. Deutch. What are those things, Dr. Alterman?
    Mr. Alterman. Well, we have a very active air base at Al 
Udeid. The Qataris remind us all the time that this is their 
sovereign territory. They make sure that we respect that. There 
are many places we could put an air base in the Gulf. And we 
have other air bases in the Gulf. I think one of the things 
that I would suggest that we talk with the Qataris about if we 
haven't already is that our reliance on Al Udeid so heavily may 
be something we have to reconsider.
    Mr. Deutch. Ms. Pletka, you are nodding?
    Ms. Pletka. I couldn't agree more. I think Jon is exactly 
right. I think the Qataris have basically been allowed cost-
free to play both sides. They do the same thing with Iran. They 
do the same thing with the Salafi groups. And the fact that 
that has continued is because they play both sides with us as 
well. On the one side, we have Al Udeid and they use that as 
leverage over us. We need to take that leverage away, and we 
need to ensure that they are more isolated. I think the Saudis 
to a slightly lesser to extent are also at fault here. Any time 
you subcontract your foreign policy to the likes of Saudi 
Arabia and Qatar--which is what we have done in Syria--you end 
up with an outcome that isn't very happy. Look at Afghanistan.
    Mr. Deutch. Mr. Badran?
    Mr. Badran. I actually disagree on that last point. Because 
Saudi effort in arming the rebels through Jordan has been 
through groups that have been very much vetted and the United 
States has been actually quite pleased with those types of 
groups. They have a great close working relationship with 
Jordanian intelligence. The thing you will have to keep in 
mind, though, is that the reason why these groups, the more 
hardcore groups thrive, these hardcore groups thrive when there 
is especially a sectarian environment where you see an Iranian 
explicitly Shiite offensive happening, and there is nobody else 
coming to the aid. So they pose as a vanguard to help the 
Syrian people. To deny them that ability is I think what should 
be the U.S. role in Syria.
    Mr. Deutch. Just looking ahead, let's assume that there is 
a willingness on the part of the Russians to engage in a 
meaningful peace process. Let's assume that all of the parties 
that would need to participate would be willing to participate. 
Ultimately, what does a resolution look like in Syria? And I 
guess the fundamental question is, do the borders remain the 
same? Number one. If not, what would a breakup of Syria or a 
redrawing of the boundaries look like? And is that something 
that we should even be entertaining?
    Dr. Alterman.
    Mr. Alterman. The borders in the Middle East, given that 
they were sort of drawn rather artificially on a map, have 
proved remarkably resilient. The only two places they have 
moved are in the Arab-Israeli conflict and in the two Yemens 
uniting. And otherwise, all these other countries that were 
just put together have been pretty durable. My guess is that de 
jure, the borders of Syria will remain in tact. De facto there 
may be some diffusion of power, the government may not either 
care to exercise control or be able to exercise control over 
the whole country. I think what we are looking at either way is 
a multi-year effort. And the biggest mistake we can make about 
Geneva is assuming that Geneva is going to have a solution. And 
if it doesn't have a solution, it is a failure, and we will 
have to find something else to do.
    We are going to have to work on a process of dealing with 
the issues in Syria. When I was at the Zaatari refugee camp in 
Jordan a couple of weeks ago, the assumption there was that 
they would have a large multi-hundred-thousand refugee problem 
in Jordan for at least 2 more years, and that is if the problem 
gets solved tomorrow.
    Mr. Deutch. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch.
    Great questions. Mr. Chabot is recognized for his time for 
questions.
    Mr. Chabot. Thank you, Madam Chair.
    I had mentioned in my opening statement a couple questions 
that I had. And those are the ones I wanted to go into. One was 
about Hezbollah, its growing role, and what difference it is 
making, and what sort of role do you think it will play once 
this whole thing plays out, whatever it might be. And I will 
open it up to any of the witnesses that might like to speak on 
that.
    Mr. Badran. Thank you. Yeah.
    As I mentioned, Hezbollah's role right now in Syria is 
really as the shock troops for the Assad regime. I mean, they 
are very much leading on all major critical functions. They are 
the ones who took the al-Qusayr down. They have been deployed 
there for several weeks now. They have taken losses, though, 
losses that they didn't expect. And the ratio is very high. So 
I think if they continue to be stretched this thin along other 
fronts in Syria, they may encounter problems. But the thing is, 
they have a State, like Iran, that is banging them with 
material and everything, whereas the other side is pretty much, 
they can put up a fight for a while, but then they have to pull 
back.
    Mr. Chabot. Okay. Thank you. Yes?
    Ms. Pletka. I am curious whether anybody thinks that there 
has been any additional price imposed upon Hezbollah for the 
role that it is playing in Syria or whether there has been any 
additional price that has been imposed on Hezbollah for the 
escalation and the quality and quantity of armaments that have 
been transferred to them via Syria for use in Syria and for use 
on the Lebanese-Israeli border. I am not aware of any effort to 
impose any additional meaningful sanctions. There have been 
some few on the edges.
    But that is it. There is a Hezbollah-backed government in 
Lebanon. We continue to provide assistance to Lebanon. Tony and 
I can probably fight this one out afterwards about whether this 
is a good thing or a bad thing. Nonetheless, these are options 
that remain for us. I sat here at this table and I said that 
Hezbollah was the best armed, most sophisticated, most 
dangerous terrorist group in the world. And I take that, fully 
understanding the capabilities of al-Qaeda. And the truth is we 
don't take them seriously in any way.
    This is meaningful, even if you couldn't give a darn about 
Syria. If you care about what is going to happen in Iran if you 
care about maintaining a military option, the fact that we are 
uninterested in de-fanging Iran's most important proxy that 
exists around the world and raises millions of dollars here in 
the United States every year is a problem. We need to do 
something about it.
    Mr. Chabot. Thank you very much.
    Dr. Alterman.
    Mr. Alterman. If there is a small silver lining, it is that 
the more Hezbollah does things that are away from its core 
principles, the more Hezbollah weakens its legitimacy inside 
Lebanon. All right? Hezbollah was used to fight other Lebanese; 
that took them down a notch. Hezbollah is being used as the 
shock troops of Bashar al-Assad in Syria against Syrians. That 
is not what Hezbollah is supposed to be for. I think that there 
is a possibility playing the diplomacy the right way to help 
use this episode to discredit Hezbollah in Lebanon, which could 
ultimately help to serve American interests.
    Mr. Badran. Instead of just discrediting, I would say to 
use this episode to help beat Hezbollah in Syria as well.
    Mr. Chabot. Thank you.
    And also on stability in Jordan--and King Abdullah was here 
recently. What impact would you say this is having on his reign 
and reforms there and the rest?
    Dr. Alterman.
    Mr. Alterman. Jordan is under tremendous pressure. I think 
what I worry about is not Jordan this month but Jordan for the 
next several years dealing with another huge refugee 
population. I was talking to somebody yesterday who speculated 
that more than half the population of Jordan is now refugees of 
one kind or another. It is a horrible not only financial 
problem, but also an intelligence problem, a law enforcement 
problem, an infrastructure problem. The Zaatari refugee camp, 
which has somewhere between 120,000 and 170,000 residents, 
depending on who you are listening to--the Jordanians tend to 
give larger numbers. It is all electrified. I saw hardware 
stores with electric fans and all kinds of things. All the 
electricity is stolen. They have people who wire into the 
electrical grid, and the camp had electricity shut off because 
there was a $1 million unpaid electrical bill. Well, the guys 
from the U.N. said we have to find electricity or people become 
totally unruly. But somebody has to pay the Jordanians for the 
electricity. Just on the water and electrical problems, it is a 
huge pressure on the country in terms of employment, in terms 
of food, a huge set of problems for Jordan. As I say, not this 
month; this is going to be going on for a while.
    Mr. Chabot. Thank you.
    Ms. Pletka, did you want to say something?
    Ms. Pletka. It is the reason, what Jon just outlined is a 
danger to the regime and to the government in Jordan I think is 
something that isn't talked about often enough. We all look at 
Syria in a vacuum, as if it is somehow an island on the moon. 
Consider the countries that are around Syria--Turkey, Israel, 
Lebanon, Jordan, Iraq. Maybe we don't care about what is 
happening in Syria--I do, but maybe we don't writ large. If you 
consider that the governments in each of these countries could 
be destabilized to the point of falling, that war could be 
taken to Israel, these are things that are going to embroil the 
United States, whether we want it or not.
    Ms. Ros-Lehtinen. Thank you, Mr. Chabot.
    Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman, and thank you to 
our panel.
    Mr. Badran, you showed us a map. Were you implying or 
stating that we should understand from that map that the Assad 
regime has already conceded large swaths of territory and in 
the future intends to concentrate on that swath in red you 
showed us?
    Mr. Badran. I believe that if they could take the other 
parts back, they would. The thing is they have limits in their 
manpower and hardware that prevents them from doing so. 
However, what they have done with these other parts that have 
fallen out of their control is use Skud missiles and their air 
power to deny the rise of an alternative government, which a 
lot of people, especially like Ambassador Frederic Hof says 
after leaving government, has advocated the no fly option 
precisely so that we can start an alternative government in 
these areas.
    Mr. Connolly. And in your view, were they to do what you 
suggest they are probably going to do, and this morning's fall 
lends some credence to your theory, is it your view that they 
could make that viable?
    Mr. Badran. I think if they can consolidate in that area 
with the Hezbollah, Iraqi militias and Iranian personnel on the 
ground, Russian weapons systems and chemical weapons, they can 
pretty much deter people from trying to storm it. And look at 
what the world, the United States is offering them in return, a 
negotiated settlement, a negotiated settlement that allows them 
to consolidate this ground, not firepower to the other side to 
be able to challenge it.
    Mr. Connolly. I listened to your testimony, and I 
particularly listened to Ms. Pletka's testimony.
    You will forgive me, Ms. Pletka, but hearing you, I hear 
echoes of NeoCon arguments about Iraq not a decade ago, and I 
want to give you an opportunity, but you use phrases like ``we 
have done absolutely nothing.'' I beg to differ. The United 
States most clearly has done something in the Arab Spring with 
limited options, but it is hard to argue we did nothing in 
Libya. I know for a fact, having been there, that we have been 
pretty engaged in Egypt. I know we have been supportive of the 
very values you extol in Tunisia.
    But I would suggest one must not confuse the limited 
ability to influence events with therefore construing it as 
doing nothing. I wonder if you would comment.
    Ms. Pletka. I am a big supporter of the Iraq war. This 
committee----
    Mr. Connolly. I guessed that.
    Ms. Pletka. You are very astute. I am a big supporter of 
the Iraq war. I think the Iraqi people are pretty grateful to 
have been liberated.
    But I want to remind this committee and you, sir, of 
something that happened in 1991. At the encouragement of 
President George H.W. Bush, the Iraqi people rose up against 
Saddam Hussein. We had a choice before us at that moment. We 
could have supported them, and we never would have entered Iraq 
at all. We chose not to do so, and ultimately, we went to war. 
Whether you like it or not, the fact is we did go to war. Had 
we thought differently about it at the outset, perhaps things 
would have ended differently.
    I am suggesting that on the question of Syria, we have a 
proxy military, people who are willing to fight and die in 
order to oust Bashar al-Assad, not American soldiers, not 
American men and women. We should be supporting those people--
--
    Mr. Connolly. And it is very clear in your mind who those 
people are. And we can single them out, and we can disaggregate 
providing weapons to them from providing weapons to extremists 
and jihadists.
    Ms. Pletka. Of course, I would always defer to the 
President and his officers in making those decisions, but 
certainly the CIA has suggested and is already vetting people 
on the ground, and they believe that that is a capability that 
they have.
    Does that mean that we can distinguish perfectly among 
them? Our track record isn't ideal. But I would also suggest to 
you that had we been a little bit more proactive at the outset, 
none of these groups would have been present on the ground. 
They entered into Syria when Syria spiralled out of control. A 
little bit of proactive thinking is a good policy for America.
    Mr. Connolly. I thank you. And that proactive thinking has 
certainly arguably not paid off for us in Iraq either. You say 
people feel liberated. Well, there are lots of other much more 
complex aspects to our involvement in Iraq, and I am not sure 
all of the outcomes that we see in Iraq are to our liking.
    Mr. Alterman, did you want to comment?
    Mr. Alterman. One of the very troubling things I find about 
Syria, I think it is useful to remind the committee, is that 
not all Syrians want the end of the Assad regime. It is partly 
for sectarian reasons but also for class reasons. For many 
Syrians, especially the middle class and upper class in cities, 
they look at the rebels as Vandals coming in and eating the 
organs of government troops on YouTube and all sorts of things.
    There is a part of this, as we look toward a solution, that 
we don't have unanimity of the people that the regime has to 
go. As we look at options, we have to take seriously the view 
that Syria remains a divided population, not a unified 
population rising up against a tyrant.
    Mr. Chabot [presiding]. Thank you, the gentleman's time has 
expired.
    The gentleman is recognized for 30 additional seconds.
    Mr. Connolly. I was simply going to concur with Dr. 
Alterman that that is an important piece to this very complex 
puzzle. I can tell you in my own district, Syrian minorities 
have very mixed feelings about what is unfolding in Syria. It 
is not the Manichean world Ms. Pletka would have us see. Thank 
you.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentleman from Illinois, Mr. Kinzinger, is recognized 
for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman. I was just shocked 
by the last 5 minutes of what I have heard. So I guess 
evidently the new thing is when America stands up for oppressed 
minorities, when America stands up for freedom, when we see 
80,000 innocent people murdered by a regime that is supported 
by Iran, the new argument is to say, well, if you support doing 
something, then you are an extension of NeoCon arguments.
    And I didn't hear anywhere in Ms. Pletka's testimony, 
which, by the way, was to me an incredible 5 minutes of what we 
need to do, I heard nowhere in there you say that we should 
send 150,000 troops in. I heard nowhere in there did you 
believe that--did you even compare that to any activity that we 
did in Iran. But yet being involved to stand for an oppressed 
minority or an oppressed people by a regime supported by Iran 
has now become a new NeoCon argument. Shocking to me.
    And this is the bigger problem. The bigger problem is we 
have now accepted that since we went through a decade of war, 
part of which was brought on in Afghanistan by somebody that 
killed thousands of American people, innocent American people, 
since we are now a little fatigued, we can't do anything around 
the globe now but retreat and not be involved. That is what I 
am hearing, and it is actually pretty scary to me.
    So I didn't intend to go off into that minute and a half, 
but let me--and first off, I would love for those who are 
saying that America is already very so involved in Syria, 
please tell that to our allies, because our allies have begged 
us to get involved in Syria.
    The Turks, you know, other allies around the region have 
begged us to be involved. They say we need American leadership. 
So, please, if you think we are already involved enough in 
Syria, tell them because they need to hear that then.
    All right. There we go. Let me just say I was actually a 
supporter of the President's policy in Libya. I was one of six 
Republicans to vote for it because I believe that a strong 
United States is a stabilizing force around the globe.
    But I believe now we have two messages that are coming out 
of the administration. There is the message that is domestic, 
which says, hey, just trust us, you know, we are actually doing 
something in Syria, but we can't really talk about it. And, by 
the way, if we do anything we can't control the outcome anyway. 
I mean, it is just a fait accompli. And then, again, there is 
the international message where the international community is 
bewildered because for the first time in history, America has 
done absolutely nothing really in a big situation like this.
    My question is, and it was to Ms. Pletka's statement, I 
think one of the biggest issues--basically the last 10 years 
has almost been a proxy war to some level against Iran. Iran is 
the big issue in the area. What message, especially when it 
comes to the issue of denuclearization that we are going to be 
very concerned with, what message has the United States policy 
in Syria sent in a larger case to Iran? I want total start with 
you, Ms. Pletka. I will let the other two answer, but please 
keep it short because I have a whole bunch of other stuff.
    Ms. Pletka. I think I said in my statement, and thank you 
for defending the values that I think we should stand for, by 
the way, the message that we send to Iran is very clear and the 
inference that the Iranians have drawn is very clear. The 
United States is not serious. We are not serious about our red 
lines. We are not serious about imposing our will and that we 
will not in fact do what it takes to stop them from proceeding 
toward a nuclear weapon.
    Mr. Kinzinger. Let me add to that, the red line situation. 
Look, what should we do if chemical weapons are used, I am not 
going to advocate one way or another right now. But I will say 
if you are the President of the United States and you ever, 
ever utter the word ``red line,'' I don't care if you are in 
the middle of a campaign, I don't care if you are in the middle 
of a crowded theater on fire and the only way to evacuate it is 
to say the word ``red line,'' you never use that unless you 
even intend to follow through, because you are the President of 
the United States. And when you need to use a red line now, 
like in Iran, they are going to laugh. And you actually make 
war much more likely when you give the impression that you are 
not going to stand behind your word, because your enemies don't 
take you seriously.
    Dr. Alterman, about the message we are sending to Iran 
right now.
    Mr. Alterman. I think the Iranians are looking at a lot of 
things. They are looking at what we are doing in North Korea. 
They are looking at a whole series of issues. I think the 
Iranians, quite frankly, are looking at our budget situation. 
And I would argue that the greatest threat to our standing in 
the world is not an individual policy or two; it is the fact 
that we seem unable to make decisions about what our priorities 
are. We are unable to rebalance what our commitments are. And I 
would argue that distinguished members of this committee and 
this House need to take seriously the fact that how we resource 
what we do in the world will determine what we can do in the 
world and what people think----
    Mr. Kinzinger. Let me cut you off there. I agree with you. 
I don't disagree at all. I am sorry, sir, I don't have enough 
time to give you an opportunity.
    But let me just say, we snatched--I am worried that we 
snatched defeat from the jaws of victory in Iraq. I am worried 
that we are about to snatch defeat from the jaws of victory in 
Afghanistan. And I look at this administration's policy in 
Syria, and I wonder if we are about to make the same mistake.
    I thank you, and I yield back, Mr. Chairman.
    Mr. Chabot. Thank you.
    The gentleman's time has expired.
    The gentleman from Illinois, Mr. Schneider, is recognized 
for 5 minutes.
    Mr. Schneider. Thank you, Mr. Chairman.
    Dr. Alterman, you referred to Syria as a hub state, 
critical to the entire region, its bordering countries, and as 
I have talked about this, I see it as a corkscrew. Whether we 
turn left or we turn right, we risk bringing all the states 
around it into the conflict.
    Ms. Pletka, you talked about forces on the ground, and I am 
interested to know are you aware of any of the states in the 
region that have forces on the ground, Ms. Pletka?
    Ms. Pletka. Forgive me, I apologize, I was talking to my 
colleague, and I thought you were directing a question to Mr. 
Alterman. Forces on the ground?
    Mr. Schneider. I was talking about hub states--the Syria 
being a hub state in the region. Are any of the bordering 
states to Syria, do they have currently forces on the ground? 
You said there were foreign troops on the ground.
    Ms. Pletka. Yes. In fact, one of the most interesting and 
troubling things that we have seen, we, AEI, together with the 
Institute for the Study of War, just put out a paper on Iranian 
activities in Syria, and one of the things that we saw is that 
the Iranians are not just arming and supporting or----
    Mr. Schneider. I am aware of the Iranian troops on the 
ground. I am talking about our allies.
    Ms. Pletka. Oh, our allies on the ground? There have been 
reports that we have Special Forces. I can't confirm, 
obviously. There are reports that there are the other troops 
there covertly even from the Gulf. I am not aware of any. I 
haven't seen them on the ground.
    The point I wanted to make to you, though, that is very 
interesting, and I hope you will appreciate it, is that the 
Iranians don't just have IRGC on the ground----
    Mr. Schneider. I understand. But you had said in your 
opening remarks there are forces on the ground, fighting, 
supporting the rebels. I am not aware of that. So I was 
asking----
    Ms. Pletka. There are forces on the ground? I am sorry----
    Mr. Schneider. You said evidence of foreign troops.
    Ms. Pletka. There are Iranians on the ground.
    Mr. Schneider. But not foreign troops fighting the Assad 
regime.
    Ms. Pletka. Oh, foreign troops fighting the Assad regime? 
There are certainly foreigners affiliated with al-Qaeda who 
have entered the conflict.
    Mr. Schneider. We have got al-Nusra. We have got al-Qaeda. 
We have got the rebels----
    Ms. Pletka. Forgive me for misunderstanding you.
    Mr. Schneider. But as we look to the foreign troops coming 
in fighting the regime, they are not troops that we would look 
long-term strategically to be allies of the United States or 
our allies in the region.
    Ms. Pletka. No, those are the only ones who are being 
armed.
    Mr. Schneider. Let me finish, please. As you advocate 
reaching out and arming those rebels who embrace democratic 
principles, what rebels are we talking about that embrace these 
democratic principles?
    Ms. Pletka. Well, in fact the Free Syrian Army embraces 
those democratic principles. Those are the forces on the ground 
with whom we have been working already, but we are not arming 
aggressively. Those are the forces who hold out some prospect 
for a better future for the Syrian people. They are not working 
with Jabhat al-Nusra. They have explicitly rejected working 
with Jabhat al-Nusra and with any other group that swears 
fealty to al-Qaeda.
    Mr. Schneider. But what I have seen is that rebels are 
fighting each other as well. To your point that the Free Syrian 
Army and al-Nusra are as much in conflict with each other as 
they are with the Assad regime, long term, and this is to all 
of the witnesses, to topple the Assad regime without a plan and 
then to have the rebels fighting each other, whether we arm the 
Free Syrian Army or not, if we put arms in, and then they then 
lose those arms to al-Nusra, the consequence to our allies are 
the same, isn't it?
    Mr. Badran. This is why, Congressman, I mentioned that we 
work with this two-pronged approach, with Turkish intelligence, 
which has excellent intelligence penetration in the north, and 
Jordanian and Saudi intelligence, which have excellent 
penetration in the south, to use them as the conduit to set up 
these local forces, and therefore, you can have an intelligence 
channel to these guys, and you know who they are, and you know 
how to deal with them.
    Second, sir, sending arms isn't just sending any type of 
arms. Not everything can be found on the black market. There 
are certain things, there are certain very specific tactical 
systems that you can send for very specific tactical missions 
and you control the flow of ammo, and that way, you can 
control--you can mitigate against unwanted outcomes.
    Mr. Schneider. Dr. Alterman?
    Mr. Alterman. Is there a specific part of that question?
    Mr. Schneider. Well, you talked about arming people to 
defend their homes, but the other conversation we heard before 
you was that we should arm the rebels.
    Mr. Alterman. We have seen this game before. I mean, when 
there are lots of weapons floating around, people have a 
temporary loyalty to us. They will tell us what they know we 
need to hear or what we want to hear. And then situations 
change, and they have forgotten their loyalty. We used to arm 
Gulbuddin Hekmatyar in Afghanistan. Now we fight Gulbuddin 
Hekmatyar. We had Stingers come out of Afghanistan. We had 
MANPADS come out of Libya. I mean, we have seen this time and 
time and time again.
    Mr. Schneider. My time is limited so I am going to ask one 
quick question. Do you see a scenario where we can arm rebels 
that we won't see that scenario, or is arming the rebels going 
to lead to the same story over again?
    Mr. Alterman. It depends on what we arm them with. 
Certainly, if there are more rifles or smaller things I am less 
worried than large sophisticated systems that can harm 
infrastructure, airplanes and those kinds of things.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from Arkansas, Mr. Cotton, is recognized for 
5 minutes.
    Mr. Cotton. Thank you.
    Thank you all for your time and coming today and for your 
efforts to you put into your testimony. I want to thank Ms. 
Pletka as well in particular for her defense of freedom. I 
don't know whether you consider yourself a NeoCon or not. I am 
quite sure that you are not a socialist who grew up in New York 
City in the 1940s and 1950s, which some of the historically 
limited knowledge colleagues of ours might not know is the 
original term for neoconservatives. I could call you a Reagan 
Republican, or I could call you a Truman Democrat or a Kennedy 
Democrat, but I will just let you define yourself as you 
choose.
    I am worried that the two most likely outcomes in Syria 
right now are both highly unacceptable to the West and the 
United States: Assad remaining in power or an al-Nusra-led 
rebel front toppling Assad and taking power. Could we just go 
down the row and get your assessment of which one of those two 
is more likely and which one would be worse for U.S. and 
Western interests? Mr. Badran.
    Mr. Badran. Thank you so much. The idea of no good guys in 
Syria I think is unhelpful. In the past the United states, in 
World War II, for example----
    Mr. Cotton. No, I am aware that there are good guys, and I 
wish that we had supported the good guys earlier, but given the 
state of play right now----
    Mr. Badran. In terms of strategic prioritization, I think 
the defeat of Assad and all the structures of Iranian influence 
in Syria is a top priority. Then you develop another strategy 
to mitigate against whatever other undesirables that can 
emerge. I do believe that the inherent fissures in the Syria 
Sunni community, its regionalism and its internal divisions are 
going to mitigate against the ability of Nusra to take over in 
the sense that we consider it would.
    Mr. Cotton. Is that assessment where the Gulf states stand? 
Let's topple Syria, let's deal Iran a blow, and we will worry 
about what happens afterwards?
    Mr. Badran. Yes, sir, and I think that they also have their 
own channels, not to al-Nusra, they have a multiple to the 
tribes, to businessmen and so on and so forth, that I think to 
just sort of condense everything to Jabhat al-Nusra is 
misleading.
    Mr. Cotton. Ms. Pletka, what is more likely, what is worse?
    Ms. Pletka. First, Mr. Cotton, thank you. I like to refer 
to myself as an American.
    What is worse is clearly Assad's return to power. I think 
that the balance has tipped slightly toward him in the last few 
weeks and that is very worrisome. The problem is that I think 
that the premise that many bring to this is that somehow we can 
get back to status quo ante; Assad looks a lot better now that 
we see what the possible outcome is. And the answer is there is 
never going to be another solid Syria under Assad, whether you 
liked it or not.
    We need to get rid of him, and we need to have a follow-on 
policy. It is that that worries me most, frankly. We can talk a 
lot about arming, who to arm, whether we can vet. But what we 
do after Assad fall is going to be decisive. If we abdicate our 
responsibility, if we forget about places, as we have forgotten 
about parts of Libya, frankly, then we end up with a situation 
in which bad guys control half the country, and we cannot allow 
that to happen.
    Mr. Cotton. Dr. Alterman.
    Mr. Alterman. I think there is a possibility of some sort 
of midpoint where Assad has control over part of the country; 
other forces have control over another part of the country. We 
try to make the other parts of the country successful.
    I think the key to me is not thinking about this as a 
moment of decision, not thinking about this as the point in 
which we decide whether this is going to be won or lost, but 
the changes in the Arab world are going to take more than a 
decade to work themselves out. The changes in Syria are going 
to take themselves more than a decade to work out.
    I think we have to take a more incremental approach, 
preserving our interests, trying to keep radicals from seizing 
more control, putting ourselves in a better position so that 
when changes continue to work through the Arab world, we can 
continue to try to use them to an advantage to further American 
values, American interests, and, very importantly, the 
interests of the very vulnerable neighbors, who are all allies 
of the United States.
    Mr. Cotton. Ms. Pletka, I want to discuss now an op-ed that 
you and General Keane have written about a no-fly zone. Most 
people when they think about a no-fly zone think about what we 
had in Iraq in the 1990s or elsewhere, where aircraft are 
fighting aircraft if they are in the air. There are also 
effective ways of making a no-fly zone, for example, destroying 
airfields or support facilities.
    Can you estimate how many airfields Syria has today, not a 
precise number, but are we talking dozens, scores, hundreds?
    Mr. Badran. I think the total is 25 or so, but a lot of 
them are decommissioned, a lot of them are outside the control 
of the Assad regime.
    Mr. Cotton. There are 25 airfields in all of Syria?
    Mr. Badran. Between civilian and military, something 
approximately around that number. But a lot of them are in the 
east and the north of the country. They have fallen outside the 
regime's control or have been decommissioned even in the past.
    Mr. Cotton. So 25, even if you say it was 50, that is both 
airfields that Syria's fixed-wing aircraft would have to use, 
but also any fixed-wing aircraft coming in from Iran for 
resupply as well.
    Ms. Pletka. As well as Russia.
    Mr. Cotton. As well as Russia. And can you estimate if it 
would take the United States military with our NATO allies 
minutes or hours to destroy those airfields?
    Ms. Pletka. I never want to put myself forward as a 
military expert. You of all people should know that I am not 
one.
    General Keane, working with him and discussing with people 
whom have done serious analysis, believe that this is a 
matter--that this is an operation that would certainly take not 
more than days. But we need to underscore that the Syrians will 
be able to repair these airfields. This is something we will 
need to keep at. If we make a commitment, we will need to keep 
at it. It won't be cost-free. And we do have the best 
capabilities in the region. Yes, the Arab League should join 
us; yes, NATO, especially Turkey, should join us. At the end of 
the day, however, we do still at this moment have the best 
capability.
    Mr. Cotton. Thank you all for your time and your insights.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from California, Mr. Vargas, is recognized 
for 5 minutes.
    Mr. Vargas. Mr. Chairman, thank you very much for the 
opportunity to speak.
    And also I want to thank the people who are testifying 
today.
    When I think of the region, I do think of a good guy. I 
think of Israel. They are good guys. They have our values. They 
are great allies, and I do see them as good guys. But I imagine 
like most Americans, I am listening to the discussion here 
trying to find the good guys here. I mean, you find the 
victims, you find the people who are being killed, the 
internally displaced people, the refugees, but then it just 
seems like all bad guys. I mean, the other guys--these are the 
guys that it seems like if you arm them, they are going to turn 
around and use the weapons against the good guys in the region. 
And that is my concern. I have been trying to pick sides here 
and done a lot of reading, and they all seem like pretty bad 
guys to me.
    So how do we pick? Who do we want to end up there? Do you 
want to deal a blow to Iran and Hezbollah, and I think that 
that is great, but then who do you end up with? Do you end up 
with people that are going to start lobbing bombs into Israel? 
I mean, who do you end up with?
    Ms. Pletka. Sir, you ask a very hard question, and it is 
not one that any of us will be able to answer to your complete 
satisfaction. You know, in World War II,we worked with Stalin's 
Russia, Stalin's Soviet Union, to defeat the Nazis. I can 
assure you that Stalin was not a nice man, for those who have 
forgotten. And these are the choices that face us in the Middle 
East as well.
    You are right, there is only one good guy. Israel is a good 
guy, and it has many, many enemies. And if we are a friend to 
Israel, we won't abandon them to the predations of the 
countries around them and say, you know what? I can't decide 
who is a better guy and who is a worse guy. I am just going to 
let them all kill each other and hope for the best.
    We have an opportunity to help, not to resolve an outcome, 
but to help to secure a better outcome that will help our ally 
Israel. It is going to be a difficult decision.
    Mr. Badran. I think that the Israelis themselves have given 
us a very important indication as to how they calculate the 
situation. They have made three incursions into Syria, strikes. 
They all have been against Iranian targets. Because the way I 
was recently there and an official there told me that the way 
they prioritize the threat is Iran is the existential threat; 
Hezbollah is a strategic threat; and whatever Islamist groups 
that may emerge in Syria are a tactical threat.
    Israel's number one priority is to prevent Iran from 
deploying strategic weapon systems on its borders. Now Syria, 
by becoming an IRGC base, in addition to Hezbollah, armed with 
Russian strategic weapons, is going to be precisely the outcome 
that Israel has been striving to prevent.
    Mr. Vargas. Dr. Alterman.
    Mr. Alterman. One of the problems with these long-ranging 
military insurgencies is the people who tend to win at the end 
are the people who fought the most, and the people whole fought 
the most are not the nice guys. They are not democrats. They 
think that they won their spoils, and now it is time to rule.
    One of the certainly daunting prospects is that you have a 
future government in Syria which does not have the experience 
of having been deterred by the Israelis the way the Assad 
government has, because for all the Assad government shoots its 
mouth off about Israel, the fact is the Assad government knows 
exactly what Israeli capabilities are and is very cautious 
about challenging Israel.
    One of the things we have to consider is the possibility 
that a future Government of Syria would have to be re-deterred 
by the Israelis. That is not a reason to not work for a 
different government in Syria. That, I think, is one of the 
reasons why we might want a more extended process of transition 
of power.
    But certainly when you talk to Israeli intelligence and 
military people, as I have, they are not euphoric about the 
fall of the person who tries to portray himself as Israel's 
greatest foe in the region because he is a foe that they are 
not particularly worried about.
    Mr. Vargas. Thank you very much.
    Speaking out of school, we heard something very similar 
very recently also that in fact Syria doesn't seem to be much 
of a threat to Israel as it is today, but the threat could come 
about. Thank you again.
    I guess I am like most Americans. It is hard to keep score 
on this one. It is hard to keep score when everyone is the bad 
guy on one side and you have a great guy and friend on the 
other side, so how do you protect that friend. I guess that is 
what I am looking for, and again, Israel being that great 
friend. Thank you.
    Ms. Ros-Lehtinen [presiding]. Thank you very much, Mr. 
Vargas.
    Mr. Weber of Texas.
    Mr. Weber. Thank you.
    I have got 5 minutes. I am going to give my time to you 
all. Three things that America can do to change this. 
Prioritize them for me.
    Mr. Badran, start.
    Mr. Badran. I think the first thing that we should do is to 
take out the supply lines that the Iranians are bringing to the 
regime because that is really the core of his ability to 
continue this war. That means the airfields, specifically 
Damascus airport being a priority. Once you take those things 
out, work with the Turkish and Jordanian intelligence and Saudi 
intelligence in Jordan to start working with the local groups 
on their borders and start making incremental assaults to deny 
the ability of the regime to consolidate itself in a little 
IRGC base in western Syria.
    Mr. Weber. That was two. That was take out the supply 
lines, work with the Turks, Jordanians and Saudis. You have got 
one more.
    Mr. Badran. And make sure that we state openly that the 
idea of a managed political transition is a fantasy, that this 
thing is not going to end until the regime is out.
    Mr. Weber. Okay.
    Ms. Pletka.
    Ms. Pletka. Both Jon and Chairman Ros-Lehtinen said that 
there has to be a political solution. And I agree, there does 
have to be, at the end of this, finally some political 
solution. No one is going to be amenable to a political 
solution----
    Mr. Weber. And you said we needed to vet. Let me just give 
you a little bit of a--to vet pro-American forces, how do you 
do that?
    Ms. Pletka. Well, first of all you are not going to get rid 
of bad guys unless the other side thinks they are winning. So I 
do think we need to pick winners, and I am a big believer. How 
do we vet them? That is the job of the CIA and our Special 
Forces. That is what they are supposedly doing on the ground. 
That is what they told the Congress they are capable of doing.
    Mr. Weber. Pick the least onerous.
    Point number two.
    Ms. Pletka. We need to impose costs on those who are aiding 
and abetting bad guys.
    Mr. Weber. Get world opinion to work against Iran.
    Ms. Pletka. Iran, Russia, Qatar.
    Mr. Weber. Point number three.
    Ms. Pletka. We need to have a policy. We need to have an 
actual policy that desires an outcome----
    Mr. Weber. Have you applied at the White House?
    Ms. Pletka. I haven't, and I suspect I am ineligible in 
their eyes. But having a policy and seeing it through, not just 
for now but for post-Assad and for the region, will be very 
important.
    Mr. Weber. Okay.
    Dr. Alterman.
    Mr. Alterman. Very quickly, we have to pay an awful lot of 
attention to our allies, both protecting our good allies, and 
making sure other allies are not undermining us.
    Second, we have to be attendant to the jihadi threat in 
Syria. That could be with us for years and years and years to 
come. It could affect a whole range of allies from Europe and 
Asia and beyond.
    Third, we have to be focused on Iran, but not over think 
the issue on Iran. One of the problems that we have fighting 
Iran in this scope is that in many ways, this is their home 
turf because they are used to fighting asymmetrically, and we 
are used to fighting symmetrically. And we have to be more 
creative about limiting Iranian influence, Iranian efforts to 
disrupt. And in many ways, this is where they feel they have a 
comparative advantage. We have to deny the comparative 
advantage.
    Mr. Weber. Do you think the Iranians are a credible serious 
threat to Israel's continued exist fence?
    Mr. Alterman. I think the Iranians are a potential threat 
to Israel's existence. They are not currently a likely threat. 
And it is unclear how that might unfold. But Israel has, in 
terms of conventional forces, in terms of unconventional 
forces, Iran is a relatively weak country that can create lots 
of mischief. And we have to be sure we don't make Iran into 
something it is not, because actually that makes it easier for 
the Iranians to succeed, because even when they get a tiny 
victory, they can----
    Mr. Weber. Let me interrupt. I am running out of time. So 
without Iranian support, does the Assad regime stay atop the 
government in Syria?
    Mr. Alterman. I think with Russian support----
    Mr. Weber. No, without Iranian support.
    Mr. Alterman. Without Iranian support, provided there is 
continued Russian support, I suspect that because of Russian 
help in the U.N., preventing international action, and Russian 
weapons and money, I think they probably could.
    Mr. Weber. So Assad stays in power without Iranian support 
in your opinion, if they just completely withdrew support?
    Ms. Pletka. I don't think so.
    Mr. Alterman. Okay, in my judgment, Russian support is 
necessary.
    Mr. Weber. Okay. And earlier, you said in your comments 
that this is a scenario that will play out in 10 years, right? 
What do you mean by that? You have got 15 seconds.
    Mr. Alterman. I don't have 10 years. This is not about a 
single battle.
    Mr. Weber. You think he stays in power 10 more years?
    Mr. Alterman. I am not sure he stays in power. I think 
there will be elements of the regime that will have large 
influence in Syria----
    Mr. Weber. A divided country?
    Mr. Alterman. Certainly de facto, if not de jure.
    Ms. Ros-Lehtinen. You have made excellent points in those 5 
minutes and got great answers. Thank you.
    Mr. Higgins of New York.
    Mr. Higgins. Thank you, Madam Chair.
    I would just say that I think it is a fair question to 
raise, that is Syria the way it is because Assad is the way he 
is, or is Assad the way he is because Syria is the way it is?
    Syria clearly contains a volatile mix of ethnic groups and 
sects. And you know the best we can hope for in any American 
military intervention is to provide, as we did in the latter 
stages of Iraq, provide a breathing space from which the 
various factions within these countries, be it Iraq, be it 
Syria, can reconcile politically and form some kind of 
functioning government toward a constitution and toward some 
kind of civil existence.
    I would say that in Egypt, on January 25th, 2011, an 18-day 
protest that was very organic was lodged against a brutal 
dictator in Egypt. The greatest influence in that was a retired 
English professor living in his apartment in north Boston, 
Massachusetts, by the name of Eugene Sharp. He wrote a book 20 
years ago called, ``From Dictatorship to Democracy.'' And 
because of the power of the Internet, and the two most powerful 
forces in the Middle East today are youth and technology, that 
book was taken, translated into 20 different languages, 
including Arabic. And in the last days of the protest in Tahrir 
Square, 8 million people were on the streets of Egypt, the 
largest pro-democracy demonstration in the history of the 
world.
    I think there is a lot of emphasis today at this hearing, 
which I think is disappointing, about whether or not we should 
intervene militarily. I think that smart power is needed. I 
think strong diplomacy is needed. Meaningful sanctions are 
needed, and the exportation, the exportation of the American 
idea. And that is based on a strong prosperous America that 
takes care of its own people, because the Internet and social 
media today are used not only effectively for organizational 
purposes in places where demonstrations could never take place 
before, but because of these great tools of collaboration we 
have, they can now, but also, also, in addition to 
organizational purposes, aspirational purposes, because the 
young people in that part of the world see how Westerners live. 
They want the same freedoms that we enjoy for our people.
    Ms. Pletka, you had said that the U.S. has done nothing: $2 
trillion out of the American economy, $160 billion in interest 
payments, because of course the two wars in Iraq and 
Afghanistan were deficit financed, that is not nothing; 2,235 
U.S. casualties in Afghanistan; 4,486 U.S. casualties in Iraq, 
that is not nothing.
    It is very, very important to remember here that the United 
States does in fact have a role. The humanitarian disasters 
that are taking place in that part of the world collectively 
and individually are of a great concern to us, and as a 
government, as a country, I think we are doing a lot.
    But there always is, there always is limitations to a super 
power and what it is we can impose on a certain people. There 
has to be a balance between what we can do to help them achieve 
what they want and what they truly want for themselves.
    And as I said at the outset, this is really not about the 
good guys and the bad guys. These are about a lot of people 
whose motivations are highly questionable, and what these 
places will become, not tomorrow or next year, but in the next 
5 to 10 years as well.
    I yield back.
    Mr. Weber [presiding]. Thank you, Mr. Higgins.
    We will now turn to Mr. Yoho of Florida. He is recognized 
for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman.
    I appreciate your input here today. It has been interesting 
to hear talks on both sides here. And I agree with both of 
them, Mr. Connolly talking about our interference as NeoCon, 
and I heard Mr. Kinzinger, and I agree with him, too.
    Dr. Alterman, I would like to start with you because you 
were talking about our willingness to intervene is unclear, and 
it is because of our policies and what policies we should 
pursue and that we have created a paper tiger.
    And I agree with you, Ms. Pletka.
    But I think the reason that we have this kind of confusion 
is because we are not following this book here, and this book 
is the Constitution of the United States of America. And I 
don't believe anywhere in there it says about a foreign 
intervention, and I believe our Founding Fathers said honest 
and open trade and commerce with all nations, honest and true 
friendship with all nations, intermingling with none.
    Unfortunately, our policies of the last 50 to 100 years 
have gotten away from this.
    Ms. Pletka, you kind of scare me in your willingness to say 
that we just need to do a fly-over. We did that in Libya. Libya 
didn't have an advanced air force. Syria has a more advanced 
air force backed by the Russian Army.
    I look around this room, and I see these young men and 
women in here, and for us to do that, can you guarantee me that 
it won't open up to an all-out war with Iran and Russia 
involved, maybe China, to bring in other people into this 
conflict?
    Because I would like for you to come to the House Chambers 
after we get done voting and look at the young men and women 
there that are the wounded warriors that have gone to 
Afghanistan and have gone to Iraq.
    And you say we have done nothing, and I agree with the 
gentleman down here. America has paid a heck of a price for the 
conflicts we have had, and yet you talk about the freedom and 
liberation in Iraq. But yet we have to fight for our air space 
over Iraq, but Iran can fly over-over Iraq. And we have paid a 
serious price. And I think our interventionist policies have 
been a dangerous thing, and what I am hearing is the same 
thing.
    And I have asked you to discuss things outside of the box, 
and I think as the gentleman talked about building and sending 
information about freedoms and the ideals of America are the 
things we need to talk about.
    But it scares me to think that we just take it flippantly 
to say we will just do a fly-over. Because if somebody did that 
to this country and did a fly-over, I think we would all view 
this as an act of aggression, if not an act of war. Are we not 
doing the same thing over there?
    I would just like to hear you guys' thoughts because I 
don't like the solutions I am hearing here, and that we are 
going to have to vote on some appropriations down the road. So 
I look forward to hearing what you have to say.
    Ms. Pletka. May I? If I may go first, I believe our 
Constitution was written by people who believed in the 
principles that animate our country and that they believed that 
those principles were not simply for Americans alone and that 
we have something to stand for in this world and that we do 
right by standing by it. So I think that if our Founders were 
sitting here today, they would agree.
    Mr. Yoho. I disagree with that, but you can have your 
opinion.
    Ms. Pletka. I realize that, and you made that very clear.
    Second of all, yes, I think I can guarantee to you that if 
we create a no-fly zone or arm the rebels in Syria, that we 
will not be involved in a regional war with Iran, China and 
Russia. I think I am willing to go out on that limb there, yes.
    As far as our wounded soldiers, I want to defer to Mr. 
Cotton, who fought in Iraq and I think can speak for the people 
who he saw on the ground there. He knows much better than I do 
how our men and women in uniform feel about defending the 
values and principles that bring us all here today.
    Mr. Yoho. Dr. Alterman.
    Mr. Alterman. Sir, I agree that the Constitution has to 
animate it. The Constitution, of course, provides for Congress 
to declare war, and sometimes we do have to fight wars.
    As I suggested, I don't think this is a time when we should 
be fighting a war. So I think we are in agreement there.
    I wish that this were a simple matter of providing some 
pamphlets and books to a civil uprising that would end an 
odious regime. I don't think we are there. We may have been 
there 2 years ago. I don't think we are at that point now. I 
don't think it would work.
    My reading of what happened in Egypt is not simply that 
some people read Gene Sharp and it inspired them and the regime 
fell. I think what happened was the military made a decision. 
It was the military that decided Hosni Mubarak was gone.
    And one of the things that has puzzled me, quite frankly, 
and that I was wrong about when I testified about Syria before 
the Senate a year ago is that the military hasn't risen up 
against Bashar al-Assad. The government has not split, despite 
overwhelming pressure.
    But the idea that we can simply get a mass movement and get 
a dictator with blood on his hands to step down is I think 
sadly wishful thinking.
    Mr. Yoho. My time has expired.
    Thank you.
    Mr. Weber. Thank you, Mr. Yoho.
    We will now turn to Mr. Cicilline for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I want to begin by saying I am disappointed in the title of 
this hearing because I think it does a serious injustice to the 
seriousness of this question and particularly the complicated 
nature of this civil war in Syria.
    Of course, from listening to some of the discussion this 
morning you might think this is a choice between being fully 
engaged in civil war in Syria, which entitles you to describe 
yourself as a patriot and as an American and someone whole 
cherishes American values, versus people who are weak, 
interested in retreat and undermining American values.
    Of course, that is not the question.
    This is a complicated question about a very difficult 
region of the world and the best way that the United States can 
both protect our national security interests and honor our 
values as a Nation.
    The question is whether the United States should make 
considerable financial investments and investments of U.S. 
military personnel to advance the national security interests 
of the United States over an indefinite period of time at the 
same time that we are drawing down from our involvement in 
Afghanistan and earlier from Iraq.
    These are hard and complicated questions.
    And I must say that I was equally disappointed to hear Ms. 
Pletka say that we have done nothing in response to 
authoritarian rule or antidemocratic actions. We have just 
spent over $100 billion after more than a decade of war, lost 
thousands of American heroes.
    I have had the honor of meeting families who have lost 
loved ones in those conflicts, thousands, tens of thousands of 
Americans who have been maimed by war.
    And I have my own view on both the war in Iraq and 
Afghanistan, but there is no question that our brave men and 
women were told the same things, they were defending American 
values.
    And I think the notion that America has done nothing to 
vindicate those values does great offense to the families who 
have been impacted by those conflicts.
    The administration in response to the civil war in Syria 
began first by denouncing the regime, expanding U.S. sanctions 
against government officials, insisting that the Assad 
government embrace reform, ultimately as the repression 
continue, called for Assad's resignation, has been working in a 
multilateral way in the U.N. to sanction the regime, to reach a 
cease-fire, to endorse a political transition plan, to expand 
humanitarian and refugee assistance, and to providing limited 
nonlethal assistance to the opposition.
    So I think the question is, what more should the U.S. do or 
can do that will effectively protect the national security 
interests of the United States and help bring stability to that 
region of the world?
    And I had hoped we would spend time on that, rather than 
challenging each other about who is really a patriot and who is 
really American.
    So what I would like you to focus on specifically is the 
suggestion--your first suggestion, Ms. Pletka, is to vet and 
arm the rebels. It seems like it would be a sensible thing to 
do. If the world were so simple, we could pick out the good 
guys and bad guys and cheer the good guys on and give them 
tools to win.
    The most recent report I have seen, which was May 13th, in 
an article in the Washington Post reported that there were a 
few hundred armed groups currently fighting in Syria. So my 
first question really is, is arming the resistance, vetting 
them, as you say, practical? And it is not enough to simply 
say, oh, the CIA can do that. I am asking this panel whether or 
not that is a sensible policy to pursue. Do we have the ability 
to actually vet several hundred armed groups? And then even if 
we are able to do that, do we have the capacity to provide 
enough resources so that they prevail, and then after they 
prevail, to be sure they remain in a post-Syria Government? 
Because without those assurances, we are back to the same 
question of do we simply invest additional American resources 
or potentially American personnel without any reasonable 
assurance that we will be successful at the end?
    I apologize, I only have 45 seconds, but do your best.
    Ms. Pletka. I would like to answer your question about 
vetting, and I know my colleagues would as well, but I do want 
to take issue with something you said about something I said.
    First of all, when I said we have done nothing, I was 
referring to Syria, not referring to tyranny and dictatorship. 
And while I didn't interrupt or correct any of the previous 
members who suggested that I had made that statement, I think 
it is time that I do so now because I made no such statement 
and I resent the implication that I did. So there we start.
    On vetting, absolutely. The choice is we either don't arm 
the rebels and do nothing; in other words, we don't support a 
proxy that wishes to overthrow Assad, a goal that the President 
has articulated for himself. Okay, we don't have to do that, or 
we arm the rebels. If we want to arm the rebels, I would 
suggest that it is important that we figure out who they are. I 
do believe it is within our capacity. I trust the CIA when they 
say we can do it. We should have done it when we armed the 
rebels in Afghanistan in the 1980s, and I believe we can do it 
now.
    Mr. Badran. I think this is why I mentioned having this 
two-pronged approach, working with regional allies to do that, 
to help us do that, and I don't think that is necessarily going 
to be a major sort of costly operation on the one hand.
    On the other hand, I mean, what kind of weapons are we 
talking about? We are talking about a very specific--there has 
to be an integrated mission here. And this is something where 
we tell them that these are the very specific weapons they are 
going to get for very specific missions, two words, squeezing 
the regime out of the areas that they are operating in, in the 
north and the south, while, for instance, targeted strikes on 
the ports of entry of resupply for the regime from the Iranians 
will diminish its ability to continue fighting, and it becomes 
an incremental policy toward that end. So it is without much 
resource commitment at all, as a matter of fact.
    Mr. Cicilline. I yield back.
    Thank you, Mr. Chairman.
    Mr. Weber. Mr. Alterman, did you want a brief time to 
respond to that?
    Mr. Alterman. No.
    Mr. Weber. Okay, thank you.
    We will now turn to Congresswoman Frankel from Florida for 
5 minutes.
    Ms. Frankel. Thank you, Mr. Chairman, and thank you to the 
panel.
    I had the privilege of joining Mr. Joe Wilson this past 
week and some of my colleagues on a CODEL, where we went to a 
few countries, but one of the stops we made was at the Combined 
Air Operations Center in Doha. And one of the opportunities I 
had was they took us to an area where they had a screen where 
we were told there was a tracking of the missiles being fired 
within Syria every single day. I mean, lots. And one of the 
things that was most concerning was how close that they would 
be coming, for example, to Turkey.
    My question to you is, and I think you might have touched 
on this before, but what do you think is the risk of the 
conflict, which now we consider a civil conflict, expanding to 
Turkey or Jordan, which might cause the United States more 
pressure to be involved in the conflict?
    Mr. Badran. I mean, the Turks have suffered, as you 
mentioned, not just these kind of shellings but also terror 
operations in Turkey sponsored by assets of the Assad regime 
that are operating in Turkey as well.
    But it is not just a civil conflict anymore. When you have 
Hezbollah leading the fight on the ground on behalf of the 
regime with pro-Iranian Shi'a militia from Iraq, for instance, 
this is no longer a civil conflict. This is a foreign state 
that is coming to defend its strategic interests in Syria.
    So the question is not just whether this is going to spill 
over, let's say, into the neighboring countries, which 
potentially it could happen. I am not sure if it is going to 
escalate to the extent that is being suggested. But the problem 
is that if you leave the Iranians to win at the end of it, then 
what is going to be the repercussion on all of our allies that 
are around Syria? What will be Turkey's position then? What 
will be Jordan's position then? What will be Israel's position 
then when you have an IRGC-controlled base on the Mediterranean 
in possession of strategic Russian weapons systems, for 
instance?
    I mean, we talk a lot about weapons not falling into the 
wrong hands of the rebels, and we are talking about RPGs and 
really tactical weapons. Here we are talking about strategic 
weapons systems, and are we suggesting that the Assad regime 
and IRGC are the right hands? I don't think that is right.
    Mr. Alterman. We have already seen fighting spilling over 
into Lebanon. We have seen violence in Turkey. I think there 
are two ways in which this violence could spread. One is that 
either regime elements or elements friendly to the regime carry 
out attacks against people fighting the regime across borders. 
As I say, we have seen that in Lebanon. We have seen that at 
least against civilian targets in Turkey.
    The other possibility is that foreign fighters who have 
networked and trained in Syria go back to their homes of origin 
and continue a jihad against whatever target. And that could 
affect a whole range of countries, not necessarily bordering, 
but it may affect most of the countries bordering Syria. And 
either one of those events would be tremendously destabilizing, 
polarizing, and for, especially I think the most vulnerable and 
small countries, Lebanon and Jordan, over the next 5 to 10 
years, that could prove to be a existential threat.
    Ms. Frankel. Thank you, Mr. Chairman.
    Mr. Weber. Thank you.
    Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Thanks to the witnesses. I really appreciate you guys 
coming.
    Just as kind of a way of background just so I can put what 
you have said in context, can you just tell me real quick, and 
I am going to insist on some quick answers, Egypt. Do you think 
that Egypt is better off today than under Mubarak? Do you think 
that Egypt is better in terms of our strategic interests in the 
region and in terms of Israel's security?
    I will start with you, Mr. Badran, and go down.
    Mr. Badran. I think Egypt's problems would have been just 
as terrible had it been under Mubarak or now because they are 
in a terrible economic situation that I don't think either 
administration could have solved.
    But I do think in terms of the strategic positioning of 
Egypt, I don't think much has changed, to be perfectly honest 
with you. So the idea of the liberties of the Egyptian people 
domestically, how have these things changed for the Egyptians, 
I am not so sure. I think there is much more robust 
participation now.
    Mr. DeSantis. What about Islamist influence in the 
government? Greater or less than under Mubarak, do you think?
    Mr. Badran. Clearly greater, of course.
    Mr. DeSantis. Ms. Pletka?
    Ms. Pletka. I think the Islamists have more influence as 
well. Do I think it is better for the United States? I think, 
ultimately, it probably will be better for the United States, 
but I think right now we are facing a very difficult situation 
in Egypt, internal problems, as Tony suggested, and also 
growing problems in ungoverned areas of Egypt that are going to 
have implications for Egypt's neighbors.
    Mr. DeSantis. Camp David Accords, more secure, less secure?
    Ms. Pletka. The Camp David Accords remain secure in my 
estimation.
    Mr. DeSantis. Doctor?
    Mr. Alterman. I think Egypt is probably in the worst 
condition now that it has been in its modern history. The 
question is whether it can use this to bounce into a more 
resilient place, and I think the jury is out. I certainly have 
been troubled by many of the things that the government has 
done, but I don't think the game is over in Egypt.
    Mr. DeSantis. And I don't necessarily think so either. I 
don't mean to cut you off, but I want to go and then just 
basically kind of the same thing about Libya. You know, you 
look and after Gadaffi fell, a lot of these weapons have gone 
with Islamic fighters. There is a lot of jihadism in North 
Africa. And I guess is North Africa a safer place now that 
Gadaffi is gone or not? Because I am concerned with what I have 
seen there. Whoever wants to take it.
    Ms. Pletka. Thank you both for throwing me under the bus on 
that one. Remember what Gadaffi did, PanAm 103, so Gadaffi was 
not a nice man. The arms that have been in Libya have 
absolutely traveled outside of Libya. And I think a big part of 
the problem is that the United States sees the conflict as an 
isolated incident that doesn't require further management.
    Would we have been able to stop it? I am not certain we 
would have. On the other hand, I think we need to remember that 
Gadaffi was a very destabilizing influence in Africa, spent a 
lot of time working to destabilize other countries and to 
support--and money, absolutely, to destabilize other countries. 
And right now, what we see is that there is a more democratic 
government in Libya, but they do not fully control all of the 
territory of Libya, and that remains a threat to the region and 
to us.
    Mr. DeSantis. Anyone else on that? Okay.
    I appreciate that.
    So I guess a lot of people would look at Syria and would 
say, well, obviously Assad is not somebody who we like, 
Hezbollah, Iran. You guys articulated that well, the problems 
there.
    But on the other side, you see a lot of Sunni supremacist 
fighters, a lot of Islamic fighters, foreign fighters.
    You mentioned the foreign fighters coming in to support 
Assad. There are also foreign fighters coming in to support the 
other side and to wage jihad. These are people who were 
fighting us in Iraq. So I guess people look at that and say, 
why do we want to referee that? Neither of those outcomes would 
be good if either of those--one of those sides were to 
ultimately win. They are basically fighting each other and 
weakening each other. Why would we want to then go in and then 
become kind of the focus of them? Because I think most of them 
are not going to be pro-American, even the people who are not 
as Islamist. You know, they may want our aid now, but the idea 
they are going to be pro-American, I am certainly not convinced 
of that. So what would you say to that kind of argument?
    Mr. Alterman. First, I would just reinforce your point. The 
French estimate is perhaps 400 French citizens are fighting in 
Syria right now. It is terrifying if you are a French security 
person thinking about the security of France into the future, 
especially a few weeks after two bloody attacks in London and 
Paris on military personnel.
    That is not to say, though, that we have no stake in how 
these battles are resolved. I understand there are evil forces 
on both sides. They are not all evil forces, and I think what 
we have to do is find a way, consistent with our interests and 
our resources, to try to influence these movements in positive 
ways. They are not all negative on the rebel side. There may be 
some people affiliated with the regime who we may be able to 
work with. And the question is whether we can, over time, work 
toward some better place which is less threatening to us, the 
immediate allies and even more broadly our allies in Europe and 
Asia and elsewhere and ultimately at home as well.
    Mr. DeSantis. My time has expired.
    Thank you, Mr. Chairman.
    Mr. Weber. Thank you, Mr. DeSantis.
    We will now move to Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    And thank each one of you for being here on this critical 
topic. I want to give a little bit of opportunity I guess for a 
few of you to expand on some of the things we have already 
talked about, one of those being the arming of rebels and 
specifically how do you think--what is the best way for us to 
identify those rebels that would not have extremist views, and 
how do we come about that? I know that is a complex question. 
It is not something that is easily answered. This is a complex 
situation.
    What is the best way for us to do that and as Members of 
Congress or the administration or the State Department, 
whomever, how do we give the tools to make sure that that gets 
done properly? So you threw him under the bus.
    Mr. Badran. The United States has been sending nonlethal 
aid. And some of it has some military function. So if we are 
capable of vetting people that we are sending that type of 
assistance to, I think we can look to other groups that we can 
send tactical weapons to. And it is important here to also 
remember that we are not talking here about scud missiles or 
nuclear weapons. We are talking about tactical weaponries, you 
know--rifles, rocket launchers, mortars, very basic things to 
achieve----
    Mr. Meadows. So things that can't come back against us in a 
real and powerful way.
    Mr. Badran. I don't think it alters the balance of power in 
the region in any way. But also, I mentioned in my testimony 
that we should harness sort of the resources of allies in the 
region. We have very close working relationships with some of 
these groups, be they the Turks, be they the Jordanians, be 
they the Saudis, be they the Qataris. And then you can look.
    But the idea that we cannot give weapons to any Islamists 
of any shade is unrealistic, I think. There are various 
Islamists. Some of them are one shade; some of them the other. 
Some of them are Islamists and are fighting--Jabhat al-Nusra, 
for instance. They are also Islamists. But more the al-Qaeda 
end of the spectrum.
    So I think that shouldn't be a constraint. We should 
acknowledge there are people--this is a sectarian war. A lot of 
people take on the religious identity precisely because of the 
nature of the fight, especially when they see an onslaught of 
sectarianism from the other side, from the Iranians, purely 
Shiite sectarian force that is fighting them. So we have to 
take all of this into consideration I think.
    Ms. Pletka. I fully agree with how Tony laid that out. And 
I think it is very astute. You are right, and all the other 
members who have suggested that there are no angels fighting in 
Syria, they are all right. But despite the fact that there are 
no angels, there will be an outcome.
    Mr. Meadows. Sure.
    Ms. Pletka. And somebody will prevail. There may be a long-
term, low-intensity conflict but somebody will come out on top. 
There will ultimately be a government, and we do have an 
interest in trying to ensure that the better among them do 
this.
    As for vetting, I think a number of members have fixated on 
this idea. And while none of us should downplay the notion that 
we will be lied to, people do absolutely don the mantle of pro-
Westernism or secularism when they are neither. On the other 
hand, we do this everywhere. We give billions of dollars to 
Egypt. We vet who that goes to. We give millions of dollars, 
tens of millions and have given billions to Lebanon. We make 
sure that they do not go to the many terrorist groups that are 
part of the Lebanese Government. We do that everywhere. We do 
it in Russia. We do it everywhere in the Middle East----
    Mr. Meadows. So how effective do you think we are at that? 
And on a scale of 1 to 10, with 10 being the most effective, 
are we a 7 or an 8? Where are we on that?
    Ms. Pletka. I think we are a five.
    Mr. Meadows. Okay. So we are missing it half the time?
    Ms. Pletka. We are not great at it. And it is hard, and it 
is challenging, and we don't have a lot of people. We need to 
work with allies on the ground for their help. They are going 
to know better.
    The point here is, this is a binary sword. We either do 
something, or we don't do something.
    Mr. Meadows. I am one running out of time so let me finish 
in with this last question because we had in this very room 
Ambassador Sherman here talking about a number of things as it 
deals with Iran. We talked a little bit about Russia and Iran 
in that plight. Can the role of sanctions, ramping up those 
sanctions on Iran, play a more critical role on the influence 
of Iran in Syria with regards to their support?
    Mr. Badran. Unfortunately, I don't think the sanctions have 
deterred Iran from putting in all its weight in Syria. I mean, 
they have been sending----
    Mr. Meadows. I guess my question is, can we, if we ramp it 
up----
    Mr. Badran. I think definitely anything that hurts the 
Iranians is good, but I think also we have to think a little 
bit outside that box and look on the battlefield in Syria. If 
the Iranians are playing an asymmetric game, let's play the 
asymmetric game. There are assets on the ground that we can 
use. Hezbollah was dealt a very severe blow in Syria. It 
sustained a really serious casualty rate. Why not help the 
rebels to defeat what we consider the number one terrorist 
group in the world?
    Mr. Meadows. Okay. I thank the chair's indulgence, and with 
that, I yield back. Thank you.
    Mr. Weber. Thank you, Mr. Meadows.
    That concludes this hearing of the Subcommittee on the 
Middle East and North Africa.
    We are adjourned.
    [Whereupon, at 2:06 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
